       FOLLOW-UP AUDIT OF THE
BUREAU OF ALCOHOL, TOBACCO, FIREARMS
           AND EXPLOSIVES
   FORENSIC SCIENCE LABORATORIES
       WORKLOAD MANAGEMENT



       U.S. Department of Justice
     Office of the Inspector General
              Audit Division


          Audit Report 06-15
             March 2006
    FOLLOW-UP AUDIT OF THE BUREAU OF ALCOHOL, TOBACCO,
  FIREARMS AND EXPLOSIVES FORENSIC SCIENCE LABORATORIES
                  WORKLOAD MANAGEMENT

                            EXECUTIVE SUMMARY


      The Bureau of Alcohol, Tobacco, Firearms and Explosives’ (ATF)
forensic science laboratories support the ATF’s mission of enforcing federal
criminal laws relating to firearms, explosives, arson, alcohol, tobacco, and
the regulatory functions associated with the firearms and explosives
industry. In the course of their investigations, ATF Special Agents submit to
the laboratories for the purpose of forensic analysis evidence that includes
firearms, explosives, fire accelerants, fire devices, and debris from
explosives and fire scenes.

      The ATF’s three regional forensic laboratories are located near
Washington, D.C., and San Francisco, and in Atlanta. The laboratories are
units of the Office of Laboratory Services, which is part of the ATF’s Office of
Science and Technology. Each of the regional laboratories primarily serves
an assigned group of states. In fiscal year (FY) 2005, the ATF laboratories
performed over 2,600 forensic examinations on evidence from crimes
involving arson, explosives, and firearms, with an authorized staff of
106 positions and a budget of approximately $16 million.

       The ATF laboratories’ forensic chemists, firearm and toolmark
examiners, fingerprint specialists, and document examiners (who we
collectively refer to as examiners) support the ATF’s 23 field divisions by
performing and reporting the results of forensic examinations in the
disciplines of:

   •   arson,
   •   automated ballistic identification,
   •   explosives,
   •   firearms and toolmarks,
   •   latent prints,
   •   trace evidence, and
   •   questioned documents.

In addition to providing forensic services, examiners perform duties outside
the laboratories, such as providing training, crime scene assistance, and
court testimony.




                                         i
      This audit was performed by the Department of Justice, Office of the
Inspector General (DOJ OIG) as a follow-up to the Department of the
Treasury Office of Inspector General (Treasury OIG) report OIG-01-068,
CRIMINAL ENFORCEMENT: ATF Forensic Science Laboratories Need to
Improve Workload Management, issued in April 2001. The DOJ OIG is
following up on an audit performed by the Treasury OIG because the ATF
was transferred to the Department of Justice in January 2003 as a result of
the Homeland Security Act.

       The Treasury OIG audit found that the ATF laboratories did not always
provide timely service, did not properly prioritize workloads, and did not
consistently follow established case file controls. The Treasury OIG
recommended that the ATF ensure that laboratories are adequately staffed,
work performed outside the laboratory is coordinated, incoming evidence is
better prioritized, and management controls are followed. In its response to
the findings and recommendations, ATF management substantially agreed
with the Treasury OIG and identified specific corrective actions it would take
to address the issues raised.

       For the DOJ OIG audit, our objectives were to determine whether the
forensic laboratories were providing timely service, effectively prioritizing
workloads, and following two specific case file management controls that
were identified in the Treasury OIG audit as weaknesses. The weaknesses
identified by the Treasury OIG were that not all closed case files contained
evidence control cards as required and that laboratory analysts were not
always recording the number of hours spent performing examinations and
writing reports on the evidence control cards. In conducting this audit, we
focused on the regional forensic laboratories that analyze and maintain
custody of evidence submitted by the ATF field divisions. We interviewed
officials from the ATF’s Office of Laboratory Services, managers and staff at
each of the three laboratories, and Special Agents who had requested
laboratory services. We also reviewed records at each of the three forensic
laboratories and analyzed workload data published by the Office of
Laboratory Services.

Timeliness of Completed Exams

      The Treasury OIG used a 30-day standard to define timely service in
its audit report in 2001. The formal performance standard for the Office of
Laboratory Services for 2005 calls for requested examinations to be
completed within 30 days in 30 percent of firearms cases, 35 percent of
explosives cases, and 40 percent of arson cases during FY 2005. The
Director of Laboratory Services told the DOJ OIG that he has adopted a long-
term goal to complete all examinations within 30 days of receiving the

                                      ii
evidence. We found that a 30-day turnaround time is commonly identified
by the forensic community as a standard that forensic laboratories should try
to achieve, but that it is generally not met for 100 percent of examinations
because of resource constraints.

       We used a 30-day standard for this audit to compare our findings with
those of the Treasury OIG and to determine how far the ATF is from meeting
this long-term goal. We also consider 30 days a reasonable goal toward
which laboratories should work because of the potentially serious
consequences of delayed forensic examinations. These effects include the
costs of wasted investigative time and delayed trials, and the more serious
possibility that additional crimes may be committed by offenders who are
not identified and arrested quickly.

      To evaluate timeliness, we obtained and analyzed data from the Office
of Laboratory Services’ Forensic Automated Case and Exam Tracking System
(FACETS), a database system used by the ATF’s regional laboratories to
track and manage submitted forensic evidence. 1 The data included all
forensic examinations that were completed from October 1, 2003, through
May 13, 2005, or were pending at that time. As shown in the following
chart, we found that 2,871 examinations (63 percent) were not completed
within the 30-day standard. Of the 2,871 examinations not completed
within 30 days, more than half took more than 90 days to complete. The
average turnaround time for all examinations was 95 days.

                         Examination Processing Time
                                          Number of
                     Processing Time                       Percent
                                         Examinations

                        0-30 Days                1,705       37
                       31-60 Days                 889        19

                       61-90 Days                 492        11

                        > 90 Days                1,490       33


                         Totals            4,576          100
                  Source: DOJ OIG analysis of FACETS data



      1
          In response to two of the recommendations in the Treasury OIG report, the ATF
stated that it planned to replace FACETS with a modern laboratory information management
system, which would permit the automated, regular exchange of case information between
agents and the laboratory.


                                           iii
       In its 2001 report, the Treasury OIG attributed the laboratories’
processing delays to the large backlogs of examination requests, an inability
to hire sufficient staff, and the staff’s other duties outside the laboratories
that competed for their time, such as providing instruction and crime scene
assistance. In general, the DOJ OIG found that these same factors
contributed to the laboratories’ average processing times and that the ATF
had not implemented some of the corrective actions it proposed in response
to the Treasury OIG’s report.

Backlogged Examinations 2

       The DOJ OIG found that the number of backlogged examinations had
decreased since the Treasury OIG audit, but the backlog still remained
significant. The DOJ OIG audit compared the backlog reported in the
Treasury audit to FY 2005 backlog figures, and found that the total backlog
of 1,289 examinations had been reduced to 983 examinations. The DOJ OIG
determined that 64 percent of pending examinations represented in the
recent data were more than 90 days old, 47 percent were more than 180
days old, and 23 percent were a year or more old. We further analyzed the
backlog by type of examination to determine if the number of cases in
specific disciplines had increased or decreased, and how long it would take
to eliminate it. We found that the backlog varied by examination type from
approximately 2 to 8 months in terms of workload. The backlog was
increasing for arson and questioned documents and was decreasing for
explosives, firearms, fingerprints, and trace examinations. For examinations
decreasing backlogs, it would take between 6 and 10 years to eliminate the
backlog if the laboratories continued to complete examinations at the
FY 2005 monthly rate.

       Following the Treasury OIG audit, ATF management planned to provide
each field division with a list of cases with pending examinations so that field
divisions could identify cases that could be deleted from the backlog.
According to the Treasury OIG report, the ATF management had provided
each field division with a list of cases that were at least a year old as of
May 1999, which resulted in 94 inactive cases being removed from the
laboratories’ backlogs. The ATF repeated this process in November 2000,
and removed an additional 85 cases. The DOJ OIG found that ATF
management had not provided these reports to the field divisions since
November 2000 and therefore had not continued this effort to clear the
backlog. According to the Director of Laboratory Services, FACETS does not

      2
         The ATF’s Office of Laboratory Services reports a “backlogged” examination as any
requested examination that has not been completed at a given point in time, even those
pending for less than 30 days.


                                            iv
produce such reports in a usable format; however, the Director anticipated
that electronic communications between field divisions and the laboratories
using the new information management system would facilitate the timely
removal of backlogged examinations associated with inactive cases. At the
time of our audit, the ATF had not implemented the new information
management system, although its acquisition had been planned since at
least 2001.

Inability to Hire Sufficient Staff

       In response to the Treasury OIG’s recommendation that the
ATF ensure the laboratories are adequately staffed, in 2001 the ATF stated it
would increase the total number of positions within the Office of Laboratory
Services by 19. However, the DOJ OIG found that, rather than increasing,
the number of positions available within the three regional forensic science
laboratories in FY 2005 had instead decreased by two from the number of
positions that existed in FY 2000. The number of vacancies noted at the
laboratories in 2001 had not changed significantly as of September 2005.

       In addition, the ATF proposed in 2001 to centralize its laboratory
personnel functions, and to attract, hire, and retain experienced personnel.
The DOJ OIG found evidence these actions had been taken, but we
concluded that they had no effect on reducing the time it took the ATF to fill
vacant/open positions. Moreover, the average of 9 months to 1 year that
vacancies remained unoccupied in 2001 increased to 14 months during
FYs 2004 and 2005. According to the Director of Laboratory Services, the
extended time it took to hire replacement personnel was partially due to the
fact that the ATF had implemented a new hiring process. Three of the
replacement actions we reviewed were in San Francisco, and laboratory
officials there stated that because of the high cost of living, it is difficult to
locate qualified personnel at a salary commensurate with their qualifications.

       Given the examiner vacancies, the DOJ OIG found that the staffing
level in FY 2005 was not sufficient to both manage the incoming workload
and reduce the existing backlog. Consequently, backlogged requests
continued to interfere with the timely analysis of incoming examinations
requests.




                                        v
Other Duties Outside the Laboratories

       In response to the Treasury OIG’s recommendation that the ATF
ensure that laboratory managers coordinate the amount of outside work
performed by laboratory personnel to limit the negative effect on the
laboratory’s workload, the ATF stated it would centralize and coordinate all
training requests, and evaluate all requests for laboratory assistance at
crime scenes to ensure that a valid need existed. The DOJ OIG found
evidence that these actions had taken place and concluded that laboratory
officials were reasonably managing the demands for these services.

Effect on ATF Investigations

      To determine how the Office of Laboratory Services’ management of
its workload affected ATF investigations, the DOJ OIG reviewed ratings and
comments from Special Agents on customer satisfaction cards that were
returned with laboratory reports. The cards ask respondents to rate the
laboratory’s performance in three areas: service, timeliness, and
reports/statements. Only 23 percent of the recipients of 4,576 laboratory
reports included in our universe returned the customer satisfaction cards,
and those respondents were overwhelmingly satisfied with the service and
laboratory reports provided by the regional forensic laboratories. However,
a minority of respondents (10 percent) expressed at least some
dissatisfaction with the time it took the laboratories to complete
examinations and issue reports.

       We also obtained supplemental information through 22 telephone
interviews from a judgmental sample of Special Agents regarding their
satisfaction with the service provided by the regional forensic laboratories.
We asked questions about the effect processing delays had on
investigations, and whether the agents ever used state and local laboratories
instead of the ATF laboratories.

       Based on those interviews, it appears that delayed receipt of
laboratory reports did not adversely affect investigations in most instances,
primarily because of the absence of a suspect or because of a confession.
However, about 30 percent of the Special Agents we interviewed stated that
they were less than satisfied with the timeliness of the service provided by
the laboratories. Additionally, because of delays at ATF laboratories, most of
the Special Agents we contacted told us that they had at least some
laboratory examinations (primarily latent prints) performed at state and
local laboratories.




                                      vi
      We concluded that the questions on the customer satisfaction cards
should be revised to ask more specific information about the effect of the
analysis on investigations, such as whether the analysis was received in time
to be of assistance on a case, or if it was not, what the negative effect was
on the progress of any investigation or the outcome of a case.

Priority System

       The Treasury OIG recommended the ATF develop a priority system for
incoming evidence submissions to support its investigative priorities. In
response, the ATF stated that a new priority system was under development.
The DOJ OIG found, however, that the new priority system had not been
implemented by FY 2005, 4 years after it was proposed as a corrective
action. Additionally, the ATF had not established a methodology for
classifying its non-expedited work, which accounts for about two-thirds of all
submissions. Non-expedited examinations were completed on a first-in,
first-out basis, which did not account for the varying degrees of importance
of these examinations.

      As shown in the following chart, examinations completed on
submissions for which expedited service was requested were generally
completed in a more timely manner than other examinations. However,
46 percent of examinations for which expedited service was requested were
not completed within 30 days.

                       Percentages of Expedited vs.
                  Non-Expedited Examinations Completed
                                (by Days)

  60%
  50%
  40%
                                                           % Expedited
  30%
                                                           % Non-Expedited
  20%
  10%
   0%
            <31        31-60        61-90       >90
                       Days to Complete

Source: DOJ OIG analysis of FACETS data




                                          vii
       Under the current priority system, requests for expedited service have
to be justified according to informal criteria and have to include a copy of the
ATF’s Report of Investigation to assist laboratory personnel in performing
examinations. We found that these management controls were not always
followed. While almost all expedited submissions we reviewed included
justifications, 19 percent did not meet the ATF’s informal criteria.
Additionally, 42 percent of case files reviewed were missing the required
Report of Investigation.

Quality Assurance

      It is crucial that forensic results be of high quality to ensure reliable
results. While the issue of quality was not addressed in the Treasury OIG’s
2001 audit, the DOJ OIG performed a limited assessment to ensure that the
ATF had a quality assurance process in place.

      We found the ATF had a quality assurance process that the Office of
Laboratory Services followed to ensure the quality of its services. The three
regional forensic laboratories are accredited and internal quality reviews are
performed periodically by the Office of Laboratory Services.

OIG Conclusions and Recommendations

       The OIG’s follow-up review to the Treasury OIG’s 2001 audit report
found that forensic science examination processing times had not
significantly improved in the past 4 years. Two-thirds of completed forensic
examinations continued to take more than 30 days to complete, and about
one-third of examinations took more than 90 days. While customers of the
ATF laboratories appreciated the quality of work produced, interviews with
Special Agents in field offices continued to reflect dissatisfaction with the
processing times, and more than half of the agents we spoke with used
other laboratories at times to obtain more timely results. We also found that
the ATF laboratories follow a quality assurance program that ensures its
laboratories are accredited by the American Society of Crime Laboratory
Directors/Laboratory Accreditation Board and the laboratories comply with
the ATF’s Office of Laboratory Services Policy and Procedures Guidelines.

       Although the ATF had implemented several corrective actions as a
result of the Treasury audit, other corrective actions that could have had a
significant impact on laboratory workload management had not been
implemented.




                                      viii
       The ATF did not increase the number of examiner positions in the
forensic laboratories, and the time it took to fill examiner vacancies had
increased. For example, the DOJ OIG found that the staffing level in
FY 2005 could not manage the incoming workload in combination with the
existing backlog in light of examiner vacancies.

      The ATF also did not implement a new priority system as it had stated
it would. The priority system currently in place does not adequately identify
evidence submissions that are appropriate for expedited service. No
standard process is in place to classify all examination requests so that they
are processed in a timely manner. Although after the 2001 Treasury OIG
audit the ATF said a new priority system was under development, the new
system had not been implemented when the DOJ OIG conducted its audit in
FY 2005.

       Finally, the ATF did not implement a new information management
system, so it did not realize the anticipated benefits associated with the new
system. The ATF also did not continue its initial efforts to clear the backlog
of requests for examinations that were no longer needed. We found that
staffing was adequate to manage the incoming workload but, as a result of
never clearing the backlog, backlogged requests continued to interfere with
the timely analysis of incoming examination requests.

       The DOJ OIG recommends seven improvements that focus on
managing the incoming workload and existing backlog, developing and
implementing a revised priority system, and developing strategies to reduce
the time it takes to fill examiner vacancies. Without taking these or similar
actions, the backlog, inadequate priority system, and vacant examiner
positions will continue to interfere with the laboratories’ ability to handle the
incoming workload of evidence on a timely basis, and more serious
consequences may occur if delays in performing the work allows offenders to
commit additional crimes.

      We recommend that the ATF:

      •   Develop and implement a plan to eliminate the backlog in each
          regional forensic science laboratory.

      •   Develop and implement a plan to manage unusually high incoming
          workloads that are associated with resource-intensive cases.

      •   Develop agreements and contracts with other laboratories to
          perform forensic work to provide support when the demand for
          examinations is unusually high and to help eliminate the backlog.

                                       ix
•   Develop and implement a priority system for managing all incoming
    evidence submissions. The system should support the ATF’s
    investigative priorities and establish realistic time standards for
    completion.

•   Ensure that Special Agents are educated on the new priority system
    and comply with its requirements.

•   Develop and implement a plan to reduce the time it takes to fill
    examiner vacancies.

•   Revise the questionnaire being sent to customers by requesting
    more specific feedback about the impact of the forensic analysis on
    the progress of investigations and outcomes of cases.




                                 x
                                     Table of Contents


INTRODUCTION .................................................................................. 1

  History and Mission .......................................................................... 1
  The Office of Laboratory Services ....................................................... 2
  National Laboratory Center ................................................................ 4
  Regional Forensic Science Laboratories................................................ 5
  Laboratory Services Operating Plan................................................... 11
  Prior Audit ..................................................................................... 12

FINDINGS AND RECOMMENDATIONS ................................................... 14

Workload Management ...................................................................... 14

  Background ................................................................................... 14
  Timeliness of Completed Examinations .............................................. 15
  Quality Assurance........................................................................... 22
  Effects on Investigations ................................................................. 24
  Backlog of Examination Requests...................................................... 29
  Inability to Hire Sufficient Staff ........................................................ 39
  Other Duties Outside the Laboratories ............................................... 43
  Priority System .............................................................................. 45
  Case File Management Controls ........................................................ 52
  Conclusion..................................................................................... 55
  Recommendations .......................................................................... 57

STATEMENT ON INTERNAL CONTROLS ................................................. 58

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ............... 59

APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY ....................... 60

APPENDIX II - DEPARTMENT OF THE TREASURY OIG’s FINDINGS AND
RECOMMENDATIONS, AND ATF MANAGEMENT’S RESPONSE.................... 63

APPENDIX III - VACANT POSITIONS AT THE THREE FORENSIC SCIENCE
LABORATORIES AS OF SEPTEMBER 30, 2005 ........................................ 68

APPENDIX IV - ATF EVIDENCE TRANSMITTAL FORM ............................... 69

APPENDIX V - CUSTOMER SATISFACTION CARD .................................... 70
APPENDIX VI - THE ATF’S RESPONSE TO THE DRAFT REPORT ................. 71

APPENDIX VII - OFFICE OF THE INSPECTOR GENERAL’S ANALYSIS AND
SUMMARY OF ACTIONS NECESSARY TO CLOSE REPORT ......................... 75
                                    INTRODUCTION


      The Bureau of Alcohol, Tobacco, Firearms and Explosives’ (ATF) was
transferred to the U.S. Department of Justice (the Department) in
January 2003 as a result of the Homeland Security Act. The Treasury
Department’s Office of Inspector General (Treasury OIG) conducted an audit
of the ATF’s forensic science laboratories and issued its report in 2001. The
Department of Justice Office of the Inspector General (DOJ OIG) conducted a
follow-up audit during 2005, which is the basis for this report, that assessed
ATF forensic science laboratories workload management.

History and Mission

      The ATF laboratory system traces its history from 1886, when
Congress established a Revenue Laboratory as part of the Department of the
Treasury (Treasury Department). This laboratory began examining alcoholic
products in 1887. Over time, the laboratory’s responsibilities expanded to
include the forensic analysis of firearms, explosives, fire accelerants, fire
devices, and debris from explosives and fire scenes.

      When the ATF was transferred to the Department of Justice in 2003,
laboratory functions related to firearms, explosives, and arson also were
transferred to the Department. Laboratory functions related to alcohol and
tobacco, which are performed primarily for regulatory purposes, remained in
the Treasury Department as the Scientific Services Division. 3

       The laboratories directly support the ATF’s mission of enforcing federal
criminal laws relating to firearms, explosives, arson, alcohol, tobacco, and
the regulatory functions associated with the firearms and explosives
industries. Laboratory services are provided to the ATF’s 23 field divisions
located throughout the United States. 4 Each field division is charged with
carrying out the ATF’s mission within its assigned jurisdiction. In FY 2005,
the ATF laboratories performed over 2,600 forensic examinations on
evidence from crimes involving arson, explosives, and firearms with a staff
ceiling of 106 positions and a budget of approximately $16 million.


       3
          However, during fiscal year (FY) 2005, the ATF laboratories in the Department of
Justice began analyzing tobacco products related to criminal cases.
       4
          Most evidence analyzed by the ATF forensic laboratories is submitted by ATF
Special Agents. The laboratories only accept evidence from state or local authorities if
special arrangements have been made with the ATF.


                                              1
The Office of Laboratory Services

      The Office of Laboratory Services is part of the ATF’s Office of Science
and Technology. According to the ATF, the Office of Laboratory Services
seeks to provide accurate and authoritative scientific information needed by
the ATF in reducing violent crime and protecting the public. The goals of the
Office of Laboratory Services are to:

   •   develop and maintain scientific excellence and lead in setting national
       and international standards in the ATF’s areas of expertise by
       developing partnerships and employing new technology,

   •   substantially advance and sustain the ATF’s strategic goals and
       programs, and

   •   provide timely services in ways that can be sustained.

      The Office of Laboratory Services consists of the Director’s Office, the
Fire Research Laboratory, and three regional forensic science laboratories
that are located near Washington, D.C., and San Francisco, and in Atlanta.
The following chart depicts the Office of Laboratory Services organizational
structure as of September 30, 2005.




                                       2
              Office of Laboratory Services – Organization Chart

                                                         Director,
                                                        Laboratory
                                                         Services



                                          Quality
                                         Programs




   Forensic Science              Forensic Science              Forensic Science                   Fire
     Laboratory –                  Laboratory –                  Laboratory –                  Research
      Washington                      Atlanta                   San Francisco                  Laboratory



                    Arson &                          Arson &                       Arson &     Engineering
                   Explosives                       Explosives                    Explosives     Section
                    Section I                        Section                       Section



                       Arson &                  Identification                Identification
                      Explosives                   Section                       Section
                       Section II



                      Firearms
                       Section




                  Identification
                     Section



Source: Office of Laboratory Services, Bureau of Alcohol, Tobacco, Firearms and Explosives

       According to the ATF, the Director of Laboratory Services leads and
oversees the laboratory system by performing strategic planning, obtaining
resources, ensuring the quality of laboratory results, promoting research and
staff development, and managing the forensic and fire research laboratories.
The Director reports to the Assistant Director for Science and Technology,
and administers an annual budget of approximately $16 million.

      According to the ATF, a Quality Programs Office, which is part of the
Director’s Office, helps the laboratories to: (1) meet national standards for
quality, (2) maintain professional accreditation, (3) improve scientific and
administrative standards, and (4) use computer systems. The office

                                                           3
develops and updates protocols and procedures, performs annual internal
reviews of each laboratory, conducts quality workshops, and administers
annual proficiency tests to laboratory personnel.

National Laboratory Center

      In June 2003, the ATF opened a $135 million National Laboratory
Center in Ammendale, Maryland. This complex houses the Office of
Laboratory Services Director’s Office, the new Fire Research Laboratory, the
Washington laboratory, and the Treasury Department’s Scientific Services
Division laboratory.

                         ATF National Laboratory Center
                             Ammendale, Maryland




Source: Office of Laboratory Services, Bureau of Alcohol, Tobacco, Firearms and Explosives

Fire Research Laboratory

      According to the ATF, the Fire Research Laboratory was the first of its
kind in the world and provides the capability to reconstruct fire scenes to
determine how fires begin and spread. This laboratory provides the
necessary facilities, equipment, and staff to work on important fire
investigation issues such as fire scene reconstruction, flashover studies,
validation of fire-pattern analysis indicators, the impact of accelerants on fire
growth and spread, ignition studies, and electrical-fire cause analysis. 5
       5
          Flashover is a dramatic event in a room fire that rapidly leads to the involvement
of all combustibles within the room.

                                              4
According to ATF publications, until the development of the Fire Research
Laboratory, there were no fire measurement facilities in the United States,
or elsewhere, dedicated to the specific needs of the fire investigation
community. The Fire Research Laboratory, however, did not exist at the
time of the Treasury OIG audit and does not perform the type of routine
forensic testing that was reviewed in the Treasury OIG audit; we did not
evaluate it as part of the DOJ OIG audit.

Regional Forensic Science Laboratories

       Staff at the regional forensic science laboratories support the ATF’s
23 field divisions by performing and reporting the results of forensic
examinations, providing training to law enforcement officials, assisting at
crime scenes, and testifying in court. Staff also enter electronic images of
bullets and cartridge cases recovered from crime scenes and suspect
weapons into the National Integrated Ballistic Information Network (NIBIN). 6

       The three forensic laboratories receive and return evidence submitted
for examination and track the evidence while it is at the laboratory. The
laboratories accept evidence for cases in which the ATF has an open
investigation and under special arrangements with state and local
authorities. For example, the ATF has an agreement with the District of
Columbia Metropolitan Police Department to perform fire debris analysis.
However, approximately 96 percent of the requests for examination included
in the universe for this audit were submitted by ATF offices. Each ATF field
division sends evidence to the laboratory that serves its area, as shown in
the following map, with the exception of documents requiring analysis in the
San Francisco region. These are sent to either the Washington or Atlanta
laboratories, because the San Francisco laboratory is not staffed to perform
this type of testing. 7




       6
         Through the NIBIN program, the ATF deploys Integrated Ballistics Identification
System (IBIS) equipment to state and local law enforcement agencies for use in imaging
and comparing crime firearm evidence. See Department of Justice, Office of the Inspector
General, Audit Report Number 05-30, The Bureau of Alcohol, Tobacco, Firearms and
Explosives’ National Integrated Ballistics Information Network Program, June 2005.
       7
          Laboratory officials told the DOJ OIG that they discontinued their efforts to replace
the single vacated document analyst position within the San Francisco laboratory in 2000,
because the volume of work no longer justified a position. Western regional field offices
were instructed to forward all document analysis requests to either the Washington or
Atlanta laboratories.


                                              5
   Regional Forensic Science Laboratories’ Areas of Responsibility




     Source: Office of Laboratory Services, Bureau of Alcohol, Tobacco, Firearms and
     Explosives

      The Atlanta and San Francisco laboratories are located in office
buildings scheduled for facility upgrades. According to the Director of
Laboratory Services, the renovation projects are scheduled for completion in
FY 2007, and the approved upgrade projects will provide additional space
and greater efficiency for each laboratory. A picture of a forensic
examination room at the Washington laboratory follows.




                                          6
                           Forensic Examination Room
                             Washington Laboratory




Source: Office of Laboratory Services, Bureau of Alcohol, Tobacco, Firearms and Explosives

Services

       The regional laboratories perform a variety of examinations using staff
with expertise in diverse disciplines. Forensic chemists, firearm and
toolmark examiners, fingerprint specialists, and document examiners
(collectively referred to as examiners throughout this report) perform the
following major types of examinations.

   •   Arson Examinations – Fire debris collected at suspected arson crime
       scenes is examined to identify accelerants, incendiaries, and
       incendiary device components. Identification of an accelerant provides
       evidence that a crime of arson was committed.

   •   Explosives Examinations – Evidence collected at explosive scenes is
       examined to identify explosives, blasting caps, fuses, timing
       mechanisms, energy sources, radio control components, igniters,
       containers, wires, tapes, and other component parts that may have
       been used to make an explosive device.

                                            7
   •   Firearm and Toolmark Examinations – Examiners perform comparisons
       of markings on bullets and cartridge casings, serial number
       restoration, weapon operability testing, bullet trajectory
       determinations, crime scene reconstruction of shooting incidents, and
       distance and shot pattern determinations. Toolmark examinations
       generally relate to explosives and arson crimes, and include the
       comparison of fractures and impressions caused by cutting, drilling,
       gripping, and prying tools.

   •   Automated Ballistic Identification – Electronic images of markings on
       bullets and cartridge cases recovered from crime scenes and suspect
       weapons are entered into NIBIN for search and comparison against
       other bullets and cartridge cases.

   •   Trace Evidence – Examiners perform microscopic, chemical, physical,
       and instrumental comparisons of a wide variety of physical evidence
       collected at crime scenes. Such materials include tape, wire, glass,
       metal, plastic, adhesive, hair, paint, fiber, and paper. These
       examinations are conducted to identify materials that can connect a
       suspect to a crime scene.

   •   Questioned Document Examinations – Document examinations are
       performed to:

       o identify handwriting, hand-printing, mechanical impressions (such
         as typewriters), and counterfeit cigarette tax stamps;

       o detect altered and forged documents;

       o restore and decipher eradicated, obliterated, and charred
         documents; and

       o detect and decipher indented writings. 8

   •   Latent Print Examinations – Approximately 90 percent of evidence
       received in the forensic laboratory is examined for the presence of
       identifiable latent prints. In many instances, latent print analysis is
       requested in addition to other examinations. Evidence examined
       includes documents, component parts of explosives and incendiary


       8
          An indented writing consists of indented marks on a sheet of paper or other
material created from a document that was written above it.


                                             8
      devices, and firearms. Techniques used include dye staining, super
      glue fuming, laser, and traditional powder methods.

      Examiners also testify as experts in court and provide training for
Special Agents, inspectors, auditors, and other federal, state, and local law
enforcement officials regarding the forensic analysis of evidence. In
addition, examiners provide assistance at crime scenes, usually as part of
one of the ATF’s four National Response Teams (NRT). These teams respond
to major explosions and fire scenes nationally and internationally. An NRT
consists of highly trained criminal investigators, forensic chemists, and
explosive technology experts. The team responds to crime scenes within
24 hours, collects evidence, and performs preliminary forensic examinations
on site.

      Each regional laboratory has a mobile, rapid response laboratory.
These rapid response laboratories operate in recreational-sized vehicles that
are deployed to crime scenes requiring significant forensic services. The first
mobile laboratory was acquired by the Washington laboratory in FY 2001 and
has been deployed about two or three times per year.

Workload

      From FYs 2003 through 2005, the three ATF forensic laboratories
received requests for and performed nearly 10,000 examinations, which was
between 2,500 and 4,000 per year. Evidence may be submitted for more
than one type of examination, so the same evidence may be included two or
more times in the number of examinations. For example, latent print
examinations are generally requested in addition to other examinations
performed and would be counted as a second or third examination.

     The following table shows the number of examinations requested and
completed for each of the forensic laboratories for the last three fiscal years.

                    Examinations Requested and Completed
                          FY 2003 through FY 2005
 Laboratory             FY 2003                       FY 2004                       FY 2005
                Requested   Completed   %     Requested   Completed   %     Requested   Completed   %

Washington        1,932       1,739     90        1,681     1,566     93      1,141       1,181     104
Atlanta             799          977    122        805         819    102       775          797    103
San Francisco       985       1,011     103        900         835    93        660          696    105
    Totals         3,716     3,727 100       3,386       3,220    95     2,576    2,674 104
Source: Office of Laboratory Services, Bureau of Alcohol, Tobacco, Firearms and Explosives



                                              9
      The preceding table shows instances in which more examinations were
completed than were requested during this period. This was the case, for
example, in all three laboratories for FY 2005, as is shown in the percentage
columns. This occurs because the numbers of completed examinations also
include examinations that were requested in a prior period. 9 As a result,
completed examinations can exceed the number requested in the same
period. The preceding table also shows that the Washington laboratory
generally performs more examinations than the other two forensic
laboratories but it also employs more staff.

       The following chart reflects the number of examinations performed by
all three forensic laboratories by each major type of examination during the
past three fiscal years.

            Examinations Performed by Each Major Type of Examination
                                                   10
                           FY 2003 through FY 2005

               1800

               1600

               1400

               1200

               1000

                800

                600

                400

                200

                  0
                       Arson   Explosives   Firearms   Prints   Doc uments   T rac e
             FY 2003   286        630         831      1,524       238        123
             FY 2004   291        554         632      1,387       148        146
             FY 2005   291        503         462      1,169        69        180


       Source: Office of Laboratory Services, Bureau of Alcohol, Tobacco, Firearms and
       Explosives

      According to ATF officials, the larger number of examinations
performed during FY 2003 was attributable to the Washington, D.C., sniper

       9
         See the Backlog of Examination Requests section of this report for a discussion of
the backlog.
       10
          This chart excludes data on comparative examinations, which the ATF’s Office of
Laboratory Services discontinued tracking in FY 2005. Therefore, the total number of
examinations for FYs 2003 and 2004 do not equal the total numbers listed in the previous
table.


                                               10
case, which involved an unusually heavy workload in the disciplines of
firearms and latent prints. 11

Information System

      The regional forensic science laboratories use the Forensic Automated
Case and Exam Tracking System (FACETS) to track and manage the forensic
evidence submitted by field offices. FACETS was developed by the Office of
Laboratory Services and upgraded in 1999 by the ATF’s Information Services
Division. FACETS provides basic database functions and operates on each
laboratory’s local area network. The system is used to record the receipt,
disposition, and tracking of forensic evidence submissions. Additionally, the
system creates standardized reports and tracks which examiner is assigned
to perform each examination. FACETS, however, does not provide
comprehensive laboratory information management functions and data.

      The ATF had planned to replace FACETS with a modern laboratory
information management system for a long time, since at least 2001. When
our audit began, the planned implementation date for the new system was
July 2005. However, as of December 2005, the implementation schedule for
the new system projected that implementation would not be complete until
March 2006.

Laboratory Services Operating Plan

       The Director of Laboratory Services publishes an Operating Plan each
fiscal year that describes objectives, tasks, and performance measures for
the Office of Laboratory Services to support the ATF’s strategic plan. The
plan for FY 2005, which was issued October 15, 2004, included an objective
to improve the timeliness of forensic services for the ATF’s major case types,
which are firearms, explosives, and arson cases. The plan also established
targets for the percentage of cases of each type to be completed within
30 days of receipt of the evidence in the laboratories. 12 The target
percentages are listed in the following table.



       11
            John Allen Muhammad and Lee Boyd Malvo were convicted for the sniper attacks
that killed 10 people and wounded 3 others in the Washington, D.C., area during October
2002. ATF officials advised us that the Washington laboratory received and test-fired over
100 firearms during the first 2 weeks of the sniper case, compared to an average of about
28 firearms examinations performed per month during FY 2004.
       12
          The 30-day standard is discussed in detail in the Timeliness of Completed
Examinations section of this report.


                                            11
                         FY 2005 Operating Plan Targets
                                               Percentage of Cases
                       Type of Case         Targeted to be Completed
                                                  Within 30 Days
                  Arson                                 40%
                  Explosives                            35%
                  Firearms                              30%
                 Source: Laboratory Services Operating Plan, FY 2005

      The Operating Plan includes supporting tasks to enable the Office of
Laboratory Services to achieve these targets. These tasks include filling
vacant or new positions, implementing a contract for fingerprint
examinations to help reduce the backlog, and reducing the amount of time
examiners spend conducting training that is not sponsored by the ATF’s
Assistant Director for Training and Professional Development. Additionally,
the Director of Laboratory Services planned to improve the evidence
submission process by publishing a new ATF directive and evidence
submission form.

Prior Audit

      The Treasury OIG issued Audit Report OIG-01-068, CRIMINAL
ENFORCEMENT: ATF Forensic Science Laboratories Need to Improve
Workload Management, in April 2001. The audit identified weaknesses in
the management and services provided by the laboratories. Specifically, the
audit found that the laboratories: (1) did not always provide timely service,
(2) needed to prioritize the workload, and (3) needed to ensure that all
closed case files contained evidence control cards and that the number of
hours laboratory employees spent analyzing evidence and preparing reports
was recorded. 13 The prior audit recommended that the ATF ensure that:

   1. The laboratories are adequately staffed with qualified personnel;

   2. Laboratory managers coordinate the amount of outside work, such as
      training, performed by laboratory personnel to limit the negative effect
      on the laboratory’s workload;

   3. The ATF develop a priority system for incoming evidence submissions
      to support its investigative priorities;



       13
           The Treasury OIG report phrased the third item as “laboratories need to ensure
case file management controls are followed,” but the finding addressed only the two specific
issues about recording hours and evidence control cards listed above.


                                            12
   4. Special Agents provide adequate justification for requests for
      expedited service and obtain proper supervisory signatures before
      submitting evidence transmittal forms to the laboratories; and

   5. Laboratory employees ensure that all closed case files contain
      evidence control cards and record the number of hours spent analyzing
      evidence and preparing reports.

      In the response to the report’s findings and recommendations, ATF
management substantially agreed with the Treasury OIG and cited specific
actions it had taken or would take to address the issues raised. The actions
included increasing the personnel ceiling for the Office of Laboratory
Services, developing a new laboratory priority system, implementing a new
information management system, and minimizing the amount of time
laboratory personnel spent outside the laboratory performing other official
duties. 14 The Treasury OIG concluded that the proposed corrective actions
addressed the intent of the recommendations. During our audit we
determined the current status of each issue, which is discussed in the
Findings and Recommendations section of this report.




      14
        Additional information on the ATF’s response to the findings and
recommendations is provided in Appendix II.


                                           13
                  FINDINGS AND RECOMMENDATIONS

Workload Management

       The DOJ OIG found the ATF laboratories had slightly improved
       the processing times for forensic analysis since the time of the
       prior audit conducted by the Treasury OIG in 2001. However,
       approximately two-thirds of completed examinations
       continued to take more than 30 days to complete.
       Approximately 37 percent of the completed examinations we
       tested were completed within 30 days, compared with
       33 percent found in the Treasury audit for FYs 1998 and 1999.
       The laboratories did reduce the percentage of examinations
       that took more than 90 days to complete, from 43 percent
       during the Treasury OIG audit to 33 percent during the DOJ
       OIG audit.

       The improvements in timeliness of laboratory examinations
       were limited because the ATF had not yet accomplished
       several actions that were planned in 2001. These actions
       included implementing a revised priority system to expedite
       services more effectively, increasing the number of examiner
       positions at the forensic science laboratories, and
       implementing the planned information system that was
       expected to improve communications between field offices
       and the laboratories. The ATF also had not significantly
       reduced the size of its backlog of examination requests,
       causing incoming requests to be put on hold for analysis while
       backlogged requests were handled.

Background

      ATF field offices, and occasionally state and local authorities, submit
evidence to the forensic laboratories along with information on evidence
submission forms, including specific requests for examinations. Agents may
submit several batches of evidence, called submissions, at different times
during an investigation. Each submission may include multiple items to be
tested, and each item may need more than one type of examination. For
example, nearly all guns on which firearms examinations are performed are
also tested for latent fingerprints.

      Submissions received at the laboratories are initially processed by an
evidence technician, who records the information in FACETS. FACETS
produces an evidence control card that is used, in part, to track the location

                                      14
of evidence in the laboratory. The evidence control card is forwarded to a
section supervisor, who assigns an examiner to perform the test. Most
evidence submissions are processed on a first-in, first-out basis. Special
Agents who need laboratory results quickly, or by a specific date, may
request expedited service using the evidence submission form. If expedited
service is requested, which was the case in approximately 30 percent of our
sample, the section supervisor will review the supporting documentation to
determine whether the circumstances justify moving the request ahead of
other pending examination requests. The supervisor may contact the
submitting agent to discuss the request. If the supervisor determines the
submission warrants expedited service, then it will be processed ahead of
other submissions. 15

      Tests on submissions that require more than one type of analysis are
processed in the order determined appropriate by the laboratory. This is
because one type of examination may destroy some evidence vital to
another examination. For instance, explosives fragments are always
examined by a chemist in the explosives section of the laboratory before a
fingerprint specialist examines the fragments for latent prints. A fingerprint
specialist always examines a firearm for latent prints before a firearms
examination is performed. Examiners from the various disciplines routinely
coordinate with one another, and with the submitting agents, in the handling
of evidence. Occasionally, Special Agents cancel requests for examinations
before the examinations are completed. This may happen as a result of a
defendant’s pleading guilty, which makes the forensic examination
unnecessary.

Timeliness of Completed Examinations

      The Treasury OIG used a 30-day standard to define timely service in
its audit report in 2001. It asserted that the goal was established by
laboratory officials during the early 1980s as a target timeframe for
completing examinations. However, the formal performance standard that
existed in the Office of Laboratory Services’ Operating Plan for 2005 reflects
the expectation that the 30-day goal would not be achieved for all
examinations. The Operating Plan for 2005 called for requested
examinations to be completed within 30 days in 30 percent of firearms
cases, 35 percent of explosives cases, and 40 percent of arson cases during
FY 2005. The plan also projected an increase of 5 percentage points for
firearms and arson cases for each of the two subsequent fiscal years.


          15
               Expedited service is discussed in more detail in the Priority System section of this
report.


                                                  15
       The Director of Laboratory Services told the DOJ OIG that he has
adopted a long-term goal that was generally accepted among crime
laboratory directors to complete all examinations within 30 days of receiving
the evidence. We found that a 30-day turnaround time was commonly
identified by the forensic community as a standard that forensic laboratories
should try to achieve, but that generally was not met for 100 percent of
examinations because of resource constraints. The following are examples
of a 30-day standard.

   •   A census report sponsored by the Department’s Office of Justice
       Programs, Bureau of Justice Statistics (BJS), applied a 30-day
       standard for forensic results to its analysis of a survey of publicly
       funded forensic laboratories. 16 The report estimated that publicly
       funded crime laboratories would need to increase staffing overall by
       approximately 20 percent to achieve a 30-day turnaround for all
       requests for forensic services. This was the only standard used for
       turnaround time in the report. The BJS also reported that achieving
       this turnaround would require resources worth more than $500 million,
       including staff, new and renovated facilities, additional and updated
       equipment, training, and improved laboratory information
       management systems. This report also defined a backlogged case as
       any case in which examination results have not been furnished in 30
       days or more. 17

   •   A number of forensic laboratories run by state authorities set goals
       around 30 days for forensic results, but do not meet the goals. For
       example, the Florida Office of Program Policy Analysis and Government
       Accountability found in 1999 that the Florida Department of Law
       Enforcement Forensic Science Program had not yet achieved its
       standard of 35 days on average to complete laboratory service
       requests (not including serology and DNA). The Mississippi
       Legislature’s Joint Committee on Performance Evaluation and
       Expenditure Review found that the Mississippi Department of Public
       Safety’s Crime Laboratories’ average turnaround time for requests


       16
           The report, Census of Publicly Funded Forensic Crime Laboratories, 2002, issued
in the BJS Bulletin for February 2005, was based on 305 responses to a survey of publicly
funded forensic crime laboratories, including federal, state, and local laboratories.
       17
          The ATF’s Office of Laboratory Services uses the term “backlog” differently than it
was used in the report cited above. Instead, the Office of Laboratory Services defines a
backlogged examination as any requested examination pending at the end of the month,
even for one day, when workload reports are prepared.


                                             16
       exceeded the 30-day turnaround goal in FY 2004. The Strategic Plan
       for the Arkansas State Crime Laboratory for FYs 2005 – 2009 sets a
       30-day average turnaround as the standard for drug, latent print,
       questioned document submissions, and toxicology submissions
       associated with homicide cases and establishes an overall objective of
       completing 90 or 95 percent of submissions within 60 days.

   •   The American Bar Association’s Section of Criminal Justice adopted a
       recommendation in April 2004 regarding adequate funding for crime
       laboratories that states, “Timely analysis of forensic evidence is
       critical. Innocent defendants may languish in jail and the guilty may
       remain at large as evidence awaits analysis. A 30-day turnaround
       time would eliminate this problem. This is an aspirational goal that is
       not currently practicable.”

   •   The Department’s National Institute of Justice sponsored a meeting of
       federal, state, and local forensic scientists and administrators in 1997
       to review forensic sciences status and needs. 18 The report of the
       meeting stated that [forensic] “cases should be worked within 30 days
       of the crime, during the active police investigation” and that when
       forensic analyses are not available quickly, law enforcement efficiency
       is diminished and trials may be delayed, contributing to backlogs and
       delays in the court system.

   •   Audits of the United Kingdom’s Forensic Science Service and the Royal
       Canadian Mounted Police reflect timeliness standards around 30 days
       and describe problems the laboratories have meeting them. 19

      We consider a goal of 30 days for the results of most forensic
examinations a reasonable target toward which laboratories should work,
but recognize that the standard is not being met and is not a realistic
expectation for all examinations under current conditions. It is used in this
report to compare our findings with the Treasury OIG audit and to
demonstrate how far the ATF is from meeting this long-term goal. We also
consider 30 days a reasonable goal toward which laboratories should work

       18
           Department of Justice, National Institute of Justice, Forensic Sciences: Review
of Status and Needs, February 1999.
       19
          Report by the Comptroller and Auditor General [of the United Kingdom],
Improving Service Delivery: The Forensic Science Service, 25 March 2003, and Auditor
General of Canada, Royal Canadian Mounted Police – Services for Canada’s Law
Enforcement Community, April 2000.




                                            17
because of the potentially serious consequences of delayed forensic
examinations. These effects include the costs of wasted investigative time
and delayed trials, and the more serious possibility that additional crimes
may be committed by offenders who are not identified and arrested quickly.

Timeliness for the Period October 1, 2003, through May 13, 2005

      To evaluate timeliness, the DOJ OIG obtained a data extract from
FACETS that included information on all forensic examinations completed
from October 1, 2003, through May 13, 2005 (the date the extract was
performed). The extract also included data on all examinations that were
pending or incomplete as of May 13, 2005. The extract included data
elements for the laboratory receipt date of evidence submissions and
examination finish dates, which we used to determine how long each
examination took. In order to determine the reliability of the data extracted
from FACETS, we compared FACETS data values with the source documents
in case files. We determined that the FACETS data was sufficiently accurate
and reliable for our use. 20 Our timeliness findings are primarily based on our
analysis of the FACETS data.

      The laboratory data we analyzed included information on 3,757 cases.
These cases were associated with 4,905 evidence submissions and
5,733 requested examinations. Of the 5,733 requested examinations,
4,576 (nearly 80 percent) were completed and 1,157 (20 percent) were
pending on the date of the extract. Excluded from these numbers were
591 examination requests that had been canceled at the time of the
extract. 21

      As shown in the following table, of the total 4,576 examinations
completed between October 1, 2003, and May 13, 2005, the DOJ OIG found
that 1,705 (37 percent) were completed within 30 days and that
1,490 (33 percent) took more than 90 days to complete. The other
30 percent were completed between 1 and 3 months after receipt. The
average turnaround time for these examinations was 95 days. 22




       20
          We found that the error rate (or deviations), for each data element that was
important to our work was significantly low.
       21
            Our analysis is found in the Cancellations section of this report.
       22
            The Treasury OIG did not include an average turnaround time in its audit report.


                                               18
                                  Examination Processing Time
                                    Processing    Number of
                                                                  Percent
                                       Time      Examinations
                                    0-30 Days        1,705           37
                                   31-60 Days          889           19
                                   61-90 Days          492           11
                                    > 90 Days        1,490           33
                                      Totals        4,576           100
                                 Source: DOJ OIG analysis of Forensic Automated
                                 Case and Exam Tracking System (FACETS) data

      The following chart compares the processing times for the three
laboratories on completed examinations included in our FACETS extract. As
the chart indicates, all three laboratories completed examinations at roughly
the same rate.

                         Time Needed to Process Completed Examinations
                                   By Forensic Laboratory 23


                         45%
                         40%
                         35%
                         30%
            Percentage




                                                                           Washington
                         25%
                                                                           Atlanta
                         20%
                                                                           San Francisco
                         15%
                         10%
                          5%
                          0%
                               0-30      31-60          61-90   >90
                                                 Days

       Source: DOJ OIG analysis of FACETS data

      We also evaluated how long the laboratories took to complete
requested examinations by type. As the following chart shows, the highest
percentages of examinations completed within 30 days were for arson and
firearms. As discussed in the Backlog section of this report, arson and


       23
           Excluded from the calculations in this chart are examinations that were either not
reviewed in the prior Treasury OIG audit, or are not performed in all three laboratories. For
instance, document analysis is not performed at the San Francisco laboratory.


                                                    19
firearms had the smallest backlog of unexamined evidence in terms of
backlog in months.

             Percentage of Examinations Completed Within 30 Days
                    October 1, 2003, through May 13, 2005

  60%
              51%
  50%
                                      42%
  40%                                                            35%           36%

  30%                    25%                        25%
  20%

  10%

   0%
              Arson    Explosives    Firearms       Trace      Documents    Fingerprints

Source: DOJ OIG analysis of FACETS data

      We compared the percentages of arson, firearms, and explosives
examinations completed within 30 days with the targets established by the
Office of Laboratory Services Operating Plan for FY 2005 for arson, firearms,
and explosives cases. 24 For arson and firearms examinations, the
laboratories outperformed the established targets of 40 and 30 percent,
respectively. However, only 25 percent of explosives examinations were
completed within 30 days compared to a target of 35 percent that was
completed within 30 days.

       The preceding chart reflects data for all of FY 2004 and for FY 2005
through the date of our data extract, May 13, 2005. We also obtained
summary data for all of FY 2005 from the Office of Laboratory Services. The
differences between the two periods are compared in the following table.




        24
           This is not a direct measure of the target as stated in the Operating Plan. We
could not use cases completed within 30 days to measure the ATF’s progress because
different submissions in the same case may have been submitted more than 30 days apart.
We also determined that the Office of Laboratory Services measured the targets using
examinations rather than cases.


                                            20
        Percentage of Examinations Completed Within 30 Days
         DOJ OIG Data Extract vs. FY 2005 Complete FY Data

                     Target              Actual Percentage of Examinations
    Type of       (Operating                   Completed Within 30 Days
     Case         Plan for FY          FACETS Data Extract for         ATF Data for
                     2005)        October 1, 2003 – May 13, 2005       All of FY 2005
  Arson               40%                         51%                       45%
  Explosives          35%                         25%                       27%
  Firearms            30%                         42%                       40%
 Source: Office of Laboratory Services (All of FY 2005, from FACETS) and DOJ OIG
 analysis of FACETS data

       For FY 2005, the reported percentages of arson and firearms
examinations completed within 30 days were slightly lower than those
reported in the preceding table for our data extract, which included all of
FY 2004 and only a portion of FY 2005, but continued to meet the targets
set in the Operating Plan. The percentage of explosives examinations
completed within 30 days continued to fall below the 35 percent target.
According to the Director of Laboratory Services, the Office of Laboratory
Services was able to exceed its target in arson and firearms cases because it
had sufficient staff in these disciplines and because a greater portion of
these cases included requests for expedited service. Conversely, the Office
of Laboratory Services was not able to meet its target for explosives cases
because of a shortage of forensic chemists and fingerprint specialists.

     Our analysis of expedited processing times is included in the Priority
System section of this report. We did find that a larger percentage of
expedited requests were processed within 30 days than was the case for all
examination requests.

Improvement in Timeliness

      The following chart compares, by percentages of completed
examinations reviewed, the processing times in the Treasury OIG report to
the processing times the DOJ OIG found. This comparison is not based on
precisely comparable data since the Treasury Department’s audit included
323 completed examinations from cases in which all examinations had been
completed, and the DOJ’s review included all 4,576 examinations completed
during a specific period, regardless of the status of other examinations




                                          21
requested in each case. 25 However, this comparison provides a general
assessment of the changes between the 1998-1999 sample of completed
examinations and the DOJ OIG’s extracted data for all completed
examinations between October 1, 2003, and May 13, 2005.

                         Time to Complete Forensic Examinations

  50%
  45%                                                     43%
  40%              37%
  35%        33%                                                33%
  30%                                                                   Treasury Report (%)
                                                                        (FYs 1998 and 1999)
  25%
                                  19%                                   DOJ Review (%)
  20%                       16%                                         (FYs 2004 and 2005)
  15%                                         11%
  10%                                    8%
   5%
   0%
             0-30 Days     31-60 Days   61-90 Days       >Ninety Days

Source: Treasury OIG Audit Report Number OIG-01-068, April 30, 2001, and DOJ OIG
analysis of FACETS data

      The Treasury OIG found that 67 percent of the sampled examinations
were not completed within 30 days, compared with the DOJ OIG finding of
63 percent, and that 43 percent of the Treasury OIG’s sampled examinations
took more than 90 days to complete, compared with the DOJ OIG finding of
33 percent. The total percentage of examinations completed within 90 days
improved from 57 percent in 1998-1999 to 67 for the period covered in the
DOJ OIG data extract. Despite this improvement, 63 percent, or almost
two-thirds of examinations, were still not being completed within 30 days at
the time of the DOJ OIG audit.

Quality Assurance

      It is crucial that forensic results be of high quality to ensure reliable
results. While the issue of quality was not addressed in the Treasury OIG’s
2001 audit, the DOJ OIG performed a limited assessment to ensure that the
ATF had a quality assurance process in place.


        25
           The Treasury OIG’s audit reviewed 159 cases from FYs 1998 and 1999 in which
all requested examinations were completed or canceled. Cases were selected from all three
forensic laboratories, and included 264 evidence submissions and 323 completed
examinations.


                                                    22
      We found the ATF had a quality assurance process that the Office of
Laboratory Services followed to ensure the quality of its services. The three
regional forensic laboratories are accredited and internal quality reviews are
performed periodically by the Office of Laboratory Services.

       The American Society of Crime Laboratory Directors/Laboratory
Accreditation Board (ASCLD/LAB) operates an accreditation program for
forensic laboratories to demonstrate that laboratory management,
operations, personnel, procedures, equipment, physical plant, security, and
safety procedures meet standards established by the organization. The
standards are those the ASCLD/LAB has determined are appropriate to
support valid forensic results. According to ATF officials, in 1985 the ATF
forensic laboratories became the first federal forensic laboratories to be
accredited by the ASCLD/LAB.

      Currently, each of the three forensic science laboratories is accredited
by the ASCLD/LAB in the disciplines of firearms and toolmarks, latent prints,
and trace evidence, which includes the arson and explosives work performed
by the laboratories. Additionally, since both the Washington and Atlanta
laboratories perform questioned document analysis, they are also accredited
in that discipline. Each accreditation covers 5 years.

       We also reviewed the Office of Laboratory Services Policy and
Procedures Guidelines to determine the ATF's policy regarding quality
assurance reviews. According to ATF policy, a quality audit of each
laboratory is to be conducted annually by a team selected by the Director of
Laboratory Services and trained by the Quality Manager. Each audit is to
verify that laboratory operations continue to comply with the requirements
of its quality system. The reviews are performed using Laboratory Services
Policy and Procedure Guidelines; discipline-specific methodology documents;
and the principles, standards and criteria established in the ASCLD/LAB
Accreditation Manual. Written reports are prepared following each audit,
and each laboratory chief is given an opportunity to respond to the report
and state the corrective actions taken.

       The DOJ OIG reviewed the quality reports for each of the three
forensic science laboratories for FYs 2004 and 2005. Each report addressed
areas such as the handling and storage of evidence, laboratory security,
calibration and maintenance of equipment, and compliance with the Office of
Laboratory Services’ scientific methods and technical procedures, including
proficiency testing, training, controls over reference standards, and peer
review of work. Written responses addressing corrective actions were
required on each finding. Based on our review of these reports, we
concluded that the Office of Laboratory Services had a quality assurance

                                      23
process in effect and that the forensic science laboratories were being held
to its standards.

Effects on Investigations

      The potential negative effects of forensic results taking more than
30 days have been identified by various studies (including the studies listed
in footnote 19), but not quantified. The most serious potential
consequences are that delays in identifying suspects and making arrests
allow offenders additional opportunities to commit crimes, thereby
endangering the public. It is also possible that the failure to provide results
on a timely basis could hamper a defendant’s right to a speedy trial. Other
potential negative consequences of delayed forensic results include wasted
investigative time and delayed trials, both of which diminish the efficiency of
the criminal justice system.

Interviews with Special Agents

       The Treasury OIG reported in 2001 that it was unable to quantify the
effect processing delays had on ATF cases. However, based on interviews
with eight Special Agents from around the country, the Treasury OIG
reported that agents indicated that they needed quicker turnaround times
for their evidence submissions and told auditors that processing delays made
it more difficult for them to track leads and locate witnesses. The agents
also said that because of these delays, they accepted fewer cases requiring
forensic examinations from state and local officials than they might
otherwise accept, and often outsourced simple examinations to state and
local laboratories.

       The DOJ OIG also obtained information from Special Agents regarding
their satisfaction with the service provided by the regional forensic
laboratories. We randomly selected 14 Special Agents who had received
laboratory reports within the 90-day period prior to the start of our audit.
To assess the impact of examinations that took a long time to complete, we
confined our selection to those reports that were dated 180 days or more
after the exhibits were first received in the laboratories. Additionally, we
randomly selected another 8 Special Agents who had been waiting for
laboratory reports on uncompleted examinations for more than 180 days.
We conducted telephone interviews with these Special Agents and asked
questions about the effect processing delays had on investigations and
whether the agents ever used state and local laboratories instead of the ATF
laboratories.



                                      24
       Based on these interviews, we found that delayed receipt of laboratory
reports did not adversely affect investigations in most instances, primarily
because of the absence of a suspect or because of a confession. However,
about 30 percent of respondents stated that they were less than fully
satisfied with the timeliness of the service provided by the laboratories.
Additionally, because of delays at ATF laboratories, more than half of the
Special Agents we contacted told us that they had at least some laboratory
examinations (primarily latent prints) performed at state and local
laboratories. 26 A laboratory official told us that they were aware that agents
occasionally use state and local laboratories for some examinations but were
unsure how often this occurs. The ATF does not systematically track
requests for services that are sent to other laboratories.

Laboratory Surveys of Special Agents

       To survey customers about their satisfaction with the management of
the Office of Laboratories Services workload, the ATF laboratories sent
customer satisfaction cards with returned laboratory reports to Special
Agents who submitted evidence for analysis. The cards asked respondents
to rate the laboratory’s performance in three areas: service, timeliness, and
reports/statements. Service could be rated as “very good,” “good,” “poor,”
or “very poor.” Timeliness and reports/statements could be rated “very
satisfied,” “satisfied,” fairly satisfied,” or “not satisfied.” The cards also
included a few blank lines for comments. 27

      The Treasury OIG reported in 2001 it was unable to obtain a
representative sample of the customer satisfaction cards to review because
laboratory officials had stopped sending them out for comment. According
to the audit report, officials told the Treasury OIG that the ATF stopped
using the cards because the feedback received showed a general
dissatisfaction with the amount of time it took to obtain test results. 28

      In response to the Treasury OIG report, the ATF re-implemented the
practice of sending customer satisfaction cards to recipients with laboratory

       26
          In follow-up conversation with eight of the Special Agents who had said that they
had used state and local laboratories, we were advised that these examinations were
performed at no cost to the federal government.
       27
           Appendix V contains a copy of the customer satisfaction card the Washington and
Atlanta laboratories send out with each laboratory report. An electronic version sent by San
Francisco captures essentially the same data items.
       28
          A laboratory official we interviewed did not agree that the laboratories had
completely stopped sending the cards.


                                             25
reports. The Washington and Atlanta laboratories attached a blank copy of
the card to each laboratory report mailed out. The San Francisco laboratory
sent an electronic version of the card on a quarterly basis to field divisions
for which a report was issued during the previous quarter.

       We reviewed the customer satisfaction cards at the regional
laboratories and matched the responses in the cards to the universe of
examinations we were reviewing. Only 23 percent of the recipients of the
4,576 laboratory reports included in our universe returned the customer
satisfaction cards to the laboratories. The following tables show the ratings
for the examinations we reviewed. 29

                  Responses in Customer Satisfaction Cards
                                  Service
                     Very                               Very       % Poor or
                     Good       Good        Poor        Poor       Very Poor
                     902         126         16           1           2%

                  Source: Customer Satisfaction Cards on file at each of the
                  three regional forensic laboratories

                  Responses in Customer Satisfaction Cards
                                 Timeliness
                                                                    % Fairly
                                                                   Satisfied or
                     Very                   Fairly       Not           Not
                   Satisfied   Satisfied   Satisfied   Satisfied    Satisfied
                     775         163          70          34          10%
                 Source: Customer Satisfaction Cards on file at each of the
                 three regional forensic laboratories




       29
         Response totals in the following three tables differ slightly because not all
respondents rated all three areas.


                                               26
                Responses in Customer Satisfaction Cards
                         Reports/Statements
                                                                 % Fairly
                                                                Satisfied or
                  Very                   Fairly       Not           Not
                Satisfied   Satisfied   Satisfied   Satisfied    Satisfied
                   909        129          2        1          0%
               Source: Customer Satisfaction Cards on file at each of the
               three regional forensic laboratories

       As noted in the preceding tables, respondents were overwhelmingly
satisfied with the service and reports provided by the regional forensic
laboratories. However, a minority (10 percent) of respondents expressed at
least some dissatisfaction with the time it took the laboratories to complete
examinations and issue reports. The following are examples of negative
comments about timeliness taken from the cards.

     Washington

        •   “I know everyone is busy, but almost six months to turn a
            bombing case around is ridiculous.”

        •   “Outstanding service as always, but the slow turn around time
            hurts the investigation and prosecution.”

        •   “I had to postpone a hearing twice because the fingerprint
            analysis was not done. September to January seems like a long
            time to get this done. This is a firearms part.”

     Atlanta

        •   “Other than the time taken to complete this analysis, my
            experience with the lab and its employees have been good.
            Taking nearly 2 years to conduct an analysis is very poor and
            borderline embarrassing.”

        •   “The Atlanta Lab has simply become useless due to the lengthy
            turnaround times. Most agents use local labs rather than deal
            with ATF Atlanta Lab. This submission took 18 months.
            Unacceptable!”

        •   “Time - of course 9 months is too long. But the staff and
            chemists are excellent, and so are the reports.”

                                            27
      San Francisco

         •   “. . . It took 21 months to get the information, thus it was of no
             use. The defendant has been sentenced and is serving time. If
             it is going to take this long, it would be good to contact the
             agent before you start the work, because they might not need it
             anymore and it would save the examiner’s time.”

         •   “The fingerprint analysis took approximately 6 months, but the
             toolmark analysis was done in a timely manner. Examiner
             [Name Deleted] was very helpful. I would like to see a quicker
             turn around time for fingerprint analysis.”

         •   The examiner “was very helpful, polite, and professional, but due
             to the backlog of cases awaiting examination, she was not able
             to look at the evidence in my case in a timely manner. The
             evidence was sent back to me and I sent it to a local lab for
             fingerprint analysis. I appreciated [Name Deleted] candor in
             telling me about the backlog so I could make other
             arrangements. . . . Hire more examiners ASAP.”

      While the comments above are mostly negative, they only represent
10 percent of respondents. The other 90 percent of respondents said that
they were either “satisfied” or “very satisfied” with the timeliness of service.
This suggests that some results are not needed by investigators within 30
days, which is discussed further in the Priority System section of this report.

      We believe that customer satisfaction cards provide one method for
obtaining customer feedback, but the current questions posed by the
laboratories need to be revised. More specific questions should be asked,
such as whether the analysis was received in time to be of assistance on a
case, or if it was not, what the negative effect was on the progress of an
investigation or the outcome of a case.

      Based on interviews with Special Agents and our analysis of feedback
on customer satisfaction cards, we found that most agents were satisfied
with the timeliness of service provided by the regional forensic laboratories.
However, approximately 10 percent of Special Agents who returned
customer satisfaction cards to the regional forensic laboratories voiced
dissatisfaction with the timeliness of service provided. We did not identify
any systemic quality problems or any instance in which the most serious
potential consequences of delayed results had occurred.


                                       28
       In its 2001 report, the Treasury OIG determined that processing
delays were caused by the laboratories’ large backlogs of examination
requests, the inability to hire sufficient staff to keep pace with the workload,
and the staff’s other duties outside the laboratories that competed for time,
such as providing training and crime scene assistance. The DOJ OIG
assessed the status of these causes and the related corrective actions from
the Treasury OIG’s audit, including the ATF’s plan to implement a new
priority system. The DOJ audit also evaluated ratings and comments about
the timeliness of laboratory services from ATF Special Agents in field offices.
With the exception of duties outside the laboratories, we generally found
that the same causes identified by the Treasury OIG were still contributing
to the processing times for forensic examinations and that the ATF had not
implemented some of the corrective actions that were intended to address
the causes. The following sections of the report address the causes for
processing delays and the status of ATF corrective actions.

Backlog of Examination Requests

      The DOJ OIG audit assessed the backlog of uncompleted examination
requests by grouping them according to the length of time each had been in
the laboratories. 30 The following chart shows the distribution of the backlog
by the length of time the examinations requests had been on hand. The
numbers at the tops of the bars are the total number of examination
requests that had not been completed as of May 13, 2005. The percentages
shown to the side of each bar are the percentages of the total backlog.




       30
          The backlog analysis in this section includes all requests for examinations that
had not been completed, not only requests that were more than 30 days old.


                                             29
                     Length of Time Pending Examinations On Hand
                                    May 13, 2005 31

  300
                                                                   272
                                                                                246
  250
             197                                    201
  200

  150                     134

  100                                  84

   50                                                                                       23
                   17%          12%         7%            17%            24%          21%        2%
    0
         0-30 Days       31-60 Days   61-90 Days   91-180 Days   181-364 Days   1-2 Years   >2 Years

Source: DOJ OIG analysis of FACETS data

     As the preceding chart indicates, 64 percent of pending examinations
had been in the laboratory more than 90 days. We also determined that
47 percent of all pending examinations were more than 180 days old and
23 percent were a year or more old.

       We further analyzed the backlog by type of examination to determine
whether it had increased or decreased, and we then estimated how long it
would take to completely eliminate the backlog at the current staffing level.
To conduct our analysis, the results of which are shown in the following
tables, we used data from the Laboratory Services Workload Report for
FY 2005, dated September 30, 2005. 32 We calculated the average number
of examinations received and completed each month (columns C and D) by
dividing total figures on the Workload Report by 12. We calculated the
“Backlog in Months” (column E) to measure the backlog as represented in
months of work only for comparison with information in the Treasury OIG
report. 33 (For this calculation, we did not factor in additional work received
        31
           Some of these examinations may be canceled in the future due to reasons such
as plea bargains, which may make the examinations unnecessary. The subject of
cancellations is discussed in more detail later in this section of the report.
        32
          Each month the Office of Laboratory Services produces a Laboratory Services
Workload Report that tracks the total number of examinations received, completed, and
backlogged for the fiscal year, up through the end of the month that is being reported.
Information in the report is based on FACETS data.
        33
          This was calculated by dividing the backlog (column B) by the average number of
examinations completed in a month during FY 2005 (column D).

                                                    30
         to calculate “Backlog in Months.”) The DOJ OIG audit determined whether
         the backlog had increased or decreased (positive and negative numbers in
         column F) during FY 2005. If the backlog had decreased, we then calculated
         the number of months it would take to eliminate the decreasing backlog
         (column G) by dividing the total backlog (column B) by the decrease per
         month (column F). This assessment assumed the laboratories will continue
         to complete examinations at the FY 2005 monthly completion rates (column
         D).

                                 Analysis of Examinations Backlog
                                   Office of Laboratory Services
         A          B            C                D               E           F              G
                            Average No.      Average No.                              Backlog Increase
                 Backlog                                                   Backlog
                            Examinations    Examinations     Backlog in                  or Months
 Category           on                                                     Change
                              Received      Completed per     Months                     Needed to
                 9/30/05                                                  per Month
                             per Month         Month                                    Eliminate It
 Arson              43          24.6             24.3            1.8         0.3          Increase
 Explosives        177          40.3             41.9            4.2        -1.6        111 Months
 Firearms          130          37.0             38.5            3.4        -1.5         87 Months
 Prints            534          90.3             97.4            5.5        -7.1         75 Months
 Documents          44           7.7              5.8            7.6         1.9         Increase
 Trace              55          14.3             15.0            3.7         -0.7          79 Months
Source: DOJ OIG analysis of data provided by the Office of Laboratory Services, Bureau of Alcohol,
Tobacco, Firearms and Explosives

               As the preceding table indicates, the backlog in months for the three
         forensic laboratories together varied by discipline from about 2 to
         8 months, and increased in the disciplines of arson and questioned
         documents. For the remaining four categories (explosives, firearms, prints,
         and trace), we project that it would take between 6 and 10 years to
         eliminate the backlog at the rate examinations were completed in FY 2005.

               We compared the average number of examinations received and
         completed each month (columns C and D). The preceding table indicates
         that the forensic laboratories were collectively able to complete an average
         number of examinations that was at least equal to the average number of
         examination requests received each month for explosives, firearms, latent
         prints, and trace examinations. For arson and questioned document
         examinations, the shortfall resulted in increases in the number of months
         needed to eliminate the backlog. This suggests that the laboratories should
         be able to provide forensic reports to field offices within 30 days in response
         to most examination requests if the existing backlog could be eliminated.




                                                  31
      We also analyzed the backlog at each of the three forensic science
laboratories to identify any significant variations that might exist between
them.

      Washington: As demonstrated in the following table, the Washington
laboratory’s backlog varied from about 2 to 13 months, increased in one of
six categories (questioned documents), and remained constant in another
category (arson). For four categories (explosives, firearms, prints, and
trace), at the rate of reduction during FY 2005, it would take between 4 and
15 years to eliminate it. While filling the vacant positions listed should help
eliminate the backlog in all but one category (questioned documents),
additional actions will be needed to completely eliminate the backlog in a
more timely manner. 34

                         Analysis of Examination Backlog
                     Forensic Science Laboratory – Washington
      A            B         C          D          E      F                               G
                           Average No.    Average No.                   Backlog    Backlog Increase
               Backlog
                           Examinations   Examinations    Backlog in    Change        or Months
Category        As Of
                           Received per    Completed       Months         per         Needed to
               9/30/05
                              Month        per Month                     Month       Eliminate It
Arson              20           9.7               9.7         2.1          0.0        No Change
Explosives         62          16.4            17.7           3.5        -1.3         48 Months
Firearms          105          20.7            21.3           4.9        -0.6        175 Months
Prints            296          33.3            36.8           8.0        -3.5         85 Months
Documents          37           4.4               2.8        13.2          1.6         Increase
 Trace             38          10.0         10.3             3.7       -0.3        127 Months
Source: DOJ OIG analysis of data provided by the Office of Laboratory Services, Bureau of
Alcohol, Tobacco, Firearms and Explosives




         34
         Appendix III shows a list of vacant positions in the three forensic laboratories as
of September 30, 2005.


                                             32
       Atlanta: The Atlanta laboratory’s backlog varied from about
1 to 4 months (column E below), increased in two categories (arson and
questioned documents), and remained constant in a third (prints) (column G
below). In three other categories (explosives, firearms, and trace evidence),
at the rate of reduction during FY 2005, it would take between 10 months
and 6 years to eliminate the backlog. Since there were no vacant positions
in Atlanta as of September 30, 2005, no additional assistance was planned.

                           Analysis of Examination Backlog
                         Forensic Science Laboratory – Atlanta
     A            B            C              D             E           F               G
                          Average No.    Average No.
               Backlog                                                Backlog    Backlog Increase
                          Examinations   Examinations   Backlog in
Category        As Of                                                 Change     or Months Needed
                          Received per    Completed      Months
               9/30/05                                               per Month     to Eliminate It
                             Month        per Month
Arson            10            8.2              8.0        1.3          0.2          Increase
Explosives       46            9.8          10.5           4.4         -0.7         66 Months
Firearms          9            8.6              9.5        0.9         -0.9         10 Months
Prints           93          31.8           31.8           2.9          0           No Change
Documents         7            3.3              3.0        2.3          0.3          Increase
 Trace            14            3.0           3.6           3.9         -0.6         23 Months
Source: DOJ OIG analysis of data provided by the Office of Laboratory Services, Bureau of
Alcohol, Tobacco, Firearms and Explosives

      San Francisco: The San Francisco laboratory’s backlog varied from
about 2 to 5 months and increased in four categories (arson, explosives,
firearms, and trace). For the other category (fingerprints), at the rate of
reduction during FY 2005, it would take more than 3 years to eliminate the
backlog. Filling a vacant supervisory position and two vacant forensic
chemist positions in San Francisco will help with the arson, explosives, and
trace evidence backlog. However, no additional assistance is planned for the
backlog of firearms and fingerprint examinations.




                                           33
                        Analysis of Examination Backlog
                  Forensic Science Laboratory – San Francisco 35
      A           B            C              D             E           F                G
                          Average No.    Average No.
               Backlog                                                Backlog    Backlog Increase
                          Examinations   Examinations   Backlog in
Category        As Of                                                 Change     or Months Needed
                          Received per    Completed      Months
               9/30/05                                               per Month     to Eliminate It
                             Month        per Month
Arson             13           6.8           6.6           2.0          0.2          Increase
Explosives        69          14.0           13.8          5.0          0.2          Increase
Firearms          16           7.8              7.7        2.1          0.1          Increase
Prints           145          25.3           28.8          5.0         -3.5         41 Months
 Trace               3         1.3            1.2           2.5          0.1          Increase
Source: DOJ OIG analysis of data provided by the Office of Laboratory Services, Bureau of
Alcohol, Tobacco, Firearms and Explosives

       The following chart compares the backlog in months for each discipline
for each of the three forensic laboratories. Using data from the three
preceding tables, we calculated the backlog in months (column E) by
dividing the backlog (column B) by the average number of examinations
completed in a month during FY 2005 (column D). As the chart indicates,
the Washington laboratory had the largest examination backlog in all
disciplines except for explosives and trace examinations, but it also
performed between 1.5 and 1.7 times as many examinations as each of the
other two forensic science laboratories.




         35
          The San Francisco laboratory does not perform questioned documents
examinations.


                                           34
                            Backlog in Months by Laboratory

              14.0
              12.0
              10.0
                                                                             W ashington
     Months




               8.0
                                                                             Atlanta
               6.0
                                                                             San Francisco
               4.0
               2.0
               0.0
                                  s




                                                         ts


                                                                 ts


                                                                        ce
                                             s
                     on


                               ve


                                             m


                                                       in


                                                              en



                                                                         a
                    s


                                 i


                                           ar


                                                    Pr
                              os




                                                                      Tr
                 Ar




                                                            um
                                         re
                           pl




                                                    t
                                                 en


                                                          oc
                                      Fi
                        Ex




                                                t


                                                         D
                                             La




  Source: DOJ OIG analysis of data provided by the Office of Laboratory Services, Bureau
  of Alcohol, Tobacco, Firearms and Explosives

Backlog Reduction

       The DOJ OIG audit compared the backlog reported in the Treasury OIG
audit report as of September 30, 1998, with the backlog reported in the
Laboratory Services Workload Report for FY 2005. The DOJ OIG found that
the total backlog of 1,289 examination requests reported in the Treasury
OIG audit had been reduced to 983 examination requests as of
September 30, 2005. Although the backlog had decreased, it remained
significant. The following chart compares the 1998 backlog reported by the
Treasury OIG with the DOJ OIG findings for the backlog size at the end of
FY 2005. In the chart, the backlog for the two audit periods is presented in
months of work at the rate examinations were being completed in 1998 and
2005, respectively.




                                                              35
                               Comparison of Examination Backlog
                                     in Months of Work 36
                                        1998 vs. 2005
            12.0
                               10.2
            10.0

             8.0
   Months




                                                                                               As of 9/30/98
             6.0
                   4.7                                                      4.7                As of 9/30/05
                                      3.9          3.8                3.5
             4.0                                                                         3.1
                                                         2.4
                         1.9                                                       2.0
             2.0

             0.0
                    Arson      Explosives          Firearms            Prints     Documents
                                            Backlog of Examinations


 Source: Treasury OIG Audit Report Number OIG-01-068, April 30, 2001, and DOJ OIG
 analysis of data provided by the Office of Laboratory Services, Bureau of Alcohol, Tobacco,
 Firearms and Explosives

       As the preceding chart shows, when the DOJ OIG analyzed the
differences in the backlog measured as months of work, the backlog in the
disciplines of latent prints and questioned documents increased and the
backlog in the disciplines of arson, explosives, and firearms decreased.
According to the Director of Laboratory Services, the backlog in latent print
and questioned documents examinations increased as a result of a shortage
of qualified examiners and an increase in the number of latent print
examinations requested.

Cancellations

      Not all of the backlogged requests for examinations are performed, nor
do they all need to be completed. Some requests are canceled based on
changes in an ATF case. For example, a case may end with a plea bargain,
making the forensic analysis unnecessary. Other requests for examination
may wait in the backlog for so long that Special Agents use other
laboratories for the forensic work. Eleven percent of the examination
requests in our universe that were no longer pending had been canceled.



             36
          Trace evidence examinations were not tracked as separate examinations in 1998,
so those examinations are not included in this chart.


                                                          36
      The DOJ OIG audit analyzed the time between the date of the
examination requests and date of the cancellations for 585 canceled
examinations in the FACETS data extract. 37 The following table shows by
days the number and percentage of examinations that were canceled. As
the table shows, almost half of the cancellations were for examination
requests that were more than 6 months old. This fact supports anecdotal
information from Special Agents that the delay in obtaining results was the
reason for the cancellation in some instances. One agent indicated that he
had canceled a latent print examination because of the delay in obtaining
results from the ATF laboratory and then arranged for a local laboratory to
perform the examination.

            Number of Days before Examinations were Canceled
                                          Number of
                           Days          Examinations         Percent
                          0-30               134               23%
                         31-60                55                10%
                         61-90                41                7%
                        91-180               102               17%
                          >180               253               43%

                      Source: DOJ OIG analysis of FACETS data

      According to the Director of Laboratory Services, supervisors were
required to screen cases over 6 months old on a monthly basis to eliminate
the examinations no longer required. However, as one agent commented,
this process may not have been effective, and there were no procedures in
place to ensure that Special Agents would advise the laboratories in a timely
fashion when the examinations were no longer needed. 38

       In response to the discussion of the backlog in the Treasury OIG audit
report, ATF management identified corrective action to provide each field
division with a list of all cases with pending examinations on a quarterly
basis, so that field divisions could identify cases that could be deleted from
the backlog. The ATF indicated it had provided each field division with a list
of cases that were at least a year old as of May 1999, which resulted in
94 inactive cases being removed from the laboratories’ backlogs. The ATF
repeated this process in November 2000, and removed an additional


       37
           The total number of canceled examinations in the FACETS data extract for the
period October 1, 2003, through May 13, 2005, was 591. However, six examinations did
not include the date the examination was canceled, and so are not included in this analysis.
       38
            See first comment under San Francisco on page 28.


                                            37
85 cases. The DOJ OIG was unable to determine the number of
examinations associated with these cases from the Treasury audit report,
but the number of examinations is at least equal to the number of cases
reported.

      The DOJ OIG found that ATF management had not provided these
reports to the field divisions since November 2000 because, according to the
Director of Laboratory Services, FACETS does not produce such reports in a
usable format. However, the Director anticipated that electronic
communications between field divisions and the laboratories using the new
information management system would facilitate the timely removal of
backlogged examinations associated with inactive cases. As previously
stated, however, the new system had been in the planning stages at least
since the time of the Treasury audit report in 2001, and still had not been
implemented by December 2005.

       Backlogged examination requests add to processing delays by
postponing the start of work on new evidence submissions. In addition, the
growing backlog in some disciplines could further add to processing delays.
The DOJ OIG concluded that, while filling vacant positions should provide
some relief, laboratory officials need to develop plans that specifically
address eliminating the backlog of examinations. The plans could include:
(1) working with field divisions to prioritize the existing backlog,
(2) eliminating requests for examinations that are no longer needed, and
(3) outsourcing examinations to other laboratories until the existing backlog
has been eliminated.

Resource-Intensive Cases

       The Treasury OIG found that between FYs 1995 and 1998, the
laboratories devoted significant resources to several high-visibility cases,
including the Murrah Federal Building bombing in Oklahoma City, the
Trans World Airlines Flight 800 investigation, and the Olympic Park bombing
in Atlanta. According to the Treasury OIG, transferring resources to these
cases adversely affected the amount of time that was available to laboratory
employees for work on routine evidence submissions and had contributed
heavily to the size of the backlog.

      Recently, the laboratories again devoted significant resources to
resource-intensive investigations, such as the Washington, D.C., sniper case.
According to laboratory officials, during the first 2 weeks of the
sniper investigation (in the Fall of 2002), the Washington laboratory
performed over 100 firearms examinations, compared with an average of
about 28 firearms examinations per month during FY 2004. These weapons

                                     38
were seized from other suspects or used in other crimes and were tested to
determine if they were also used in the sniper case.

      Exceptional resource-intensive cases can reasonably be expected to be
part of the ATF laboratories’ workload for the foreseeable future.
Accordingly, the laboratories need to plan for managing the workloads that
are associated with resource-intensive cases while continuing to process
more routine examinations. The DOJ OIG believes that proper planning will
help keep the backlog of examination requests to a manageable level.
Additionally, the Office of Laboratory Services also could consider entering
into agreements and contracts with other laboratories to provide support
when the demand for examinations is unusually high.

Inability to Hire Sufficient Staff

Personnel Ceiling and Allocation

      Laboratory officials and the Treasury OIG identified inadequate staffing
as one reason for processing delays, leading to large backlogs of
uncompleted examinations. The Treasury OIG 2001 audit report
recommended the ATF ensure that laboratories were adequately staffed. In
response to the report, the ATF Director authorized an increase in the ceiling
for the Office of Laboratory Services from 115 in FY 2000 to 134 positions
for FY 2001.

       During the DOJ OIG audit, ATF officials stated that the personnel
ceiling for FY 2005 was 106 positions, which represents a net decrease of
28 positions from the reported FY 2001 level of 134. The net decrease may
be explained by the fact that the Scientific Services Division maintained
28 positions within the Department of the Treasury when the ATF
laboratories became part of the Department of Justice in 2003. However,
while the FY 2005 number of authorized positions was 106, only 90 of these
positions were filled by the end of the fiscal year. Budgeted positions and
actual staffing levels at the laboratories as of September 30, 2005, are
shown in the following table.




                                     39
                   Office of Laboratory Services Staffing
                                September 30, 2005
                                     Positions Positions          Positions
                  Activity           Budgeted       Filled         Vacant
        Director's Office                 10           9               1
        Fire Research
        Laboratory                        12          11               1
                          Subtotal        22          20               2
        Washington                        40          29              11
        Atlanta                           23          23               0
        San Francisco                     21          18               3
                          Subtotal        84          70             14
                             Total      106           90             16
       Source: Office of Laboratory Services, Bureau of Alcohol, Tobacco, Firearms and
       Explosives

       To determine if the regional forensic laboratories experienced any
increase in the number of positions to help process forensic examinations in
a more timely manner, we obtained additional information about how
positions were allocated within the Office of Laboratory Services for
FYs 2000 and 2005, which are compared in the following table.




                                          40
                Positions in the Office of Laboratory Services
                             FY 2000 and FY 2005
                                                               FY 2000     FY 2005
        Personnel Ceiling                                           115         106
        Treasury Department’s
                                                                     28           0
        Alcohol and Tobacco Laboratory
        Office of Laboratory Services Total
                                                                     87         106
        without Alcohol and Tobacco Positions
        Management Positions in the Director’s Office                 7          10
        Positions to Implement the Safe Explosives Act
        (added in 2004)                                                           3
        Positions to Create a DNA Section (added at the
        Washington Laboratory in 2005)                                            3
        Fire Research Laboratory Positions                                       12
        Positions for Regional Forensic Laboratories to
                                                                     80          78
        Perform Ongoing Work 39
       Source: Office of Laboratory Services, Bureau of Alcohol, Tobacco, Firearms and
       Explosives

      We found the number of positions available in FY 2005 for the regional
forensic laboratories to perform ongoing work decreased by 2 from the
80 positions in the FY 2000 allocation, as indicated in the last row of the
preceding table. Regardless of the ceilings that were reported (up to 134 for
FY 2001), there has been a small net decrease in staff resources to perform
that portion of the forensic mission that remained unchanged from 2001 to
the present.

Filling Vacancies

       The number of vacancies in the laboratories also has not changed
significantly between the two audits. At the time of the Treasury OIG’s
audit, the regional forensic laboratories collectively had 10 vacancies out of
an allocation of 80 positions, and it usually took from 9 months to 1 year to
hire new employees. The vacancies represented approximately 12 percent
of the positions allotted to the laboratories. The Treasury OIG reported that

       39
           The positions listed are excluded from our calculation of the Positions for Regional
Forensic Laboratories to Perform Ongoing Work because: (1) Management Positions in the
Director’s Office are not staff for the regional laboratories, (2) Positions to Implement the
Safe Explosives Act were for a new mission assigned to the ATF in FY 2004, and therefore
are not relevant to a comparison of current positions to the positions in FY 2001 for ongoing
work, (3) Positions to Create a DNA Section are for work not previously performed at the
laboratories, and therefore are not relevant to a comparison of current positions to the
positions in FY 2001 for ongoing work, and (4) the Fire Research Laboratory, which was
established in FY 2003, does not perform the type of routine forensic testing that was
reviewed in the Treasury OIG audit, and therefore are not relevant to a comparison of
current positions to the positions in FY 2001 for ongoing work.


                                              41
the difficulty in hiring experienced personnel resulted from the ATF’s inability
to compete with the salaries and benefits offered by private industry and
because of the length of time needed to complete the hiring process, during
which potential employees may find jobs elsewhere. In response to the
2001 Treasury OIG audit, ATF managers reported they had centralized all
administrative personnel functions within the Office of Laboratory Services
and were using recruitment incentives and a pay demonstration project in
order to attract and retain highly qualified personnel. 40

       As of September 30, 2005, there were 11 vacant positions,
representing approximately 14 percent of the positions authorized for the
laboratories. 41 Eight of the vacancies were at the Washington laboratory
and three were in San Francisco; none were at the Atlanta laboratory. The
vacancies occurred as a result of promotions, retirements, internal transfers,
or resignations. According to the Director of Laboratory Services, the long
hiring time resulted in part from the implementation of a new hiring process,
which initially extended the time it took to hire replacement personnel.
Further, laboratory officials stated that the three positions in San Francisco
were difficult to fill because of the high cost of living there, and it was
difficult to locate qualified personnel at a salary commensurate with their
qualifications.

      The DOJ OIG found that the length of time positions were vacant
increased slightly since the prior audit. We also found that positions filled by
external candidates during FYs 2004 and 2005 were vacant for an average of
14 months as shown in the following table.




       40
           The Personnel Management [Pay] Demonstration Project for Designated Critical
Positions, authorized by Congress, is a pilot pay banding and performance management
system that is intended to enhance the federal government’s ability to recruit, develop, and
retain highly qualified employees for critical scientific, technical, and engineering positions.
       41
           The Office of Laboratory Services had obtained authorization to establish a new
three-person DNA section at the Washington laboratory in FY 2005. Although these
positions are currently vacant and are listed in Appendix III, they do not have any bearing
on the forensic examinations under discussion in this report and are not included in our
analysis of vacant positions.


                                              42
       Months to Fill Vacant Forensic Science Examiner Positions
                          FY 2004 and FY 2005
                                              Date
                                            Position
                                           Previously
   Laboratory             Position          Vacated      Date Filled    Months Vacant
San Francisco        Forensic Chemist       11/1/03         6/6/04         7 Months
                     Fingerprint
San Francisco        Specialist             1/25/04         2/7/05         12 Months
Washington           Forensic Chemist        1/3/03        1/23/05         25 Months
                     Fingerprint
San Francisco        Specialist             2/21/04         1/10/05        11 Months
                                                           Average         14 Months
Source: Office of Laboratory Services, Bureau of Alcohol, Tobacco, Firearms and Explosives

      During the DOJ OIG audit, ATF managers told us they were making a
concerted effort to hire experienced personnel whose training period would
be shorter, making them productive sooner. However, we found that the
ATF’s efforts did not reduce the time it took to fill vacant positions. Long
periods during which allocated positions were unoccupied contributed to the
examination processing delays at laboratories where these vacancies
existed. Accordingly, we believe the ATF should take additional measures to
reduce the time it takes to fill vacant positions, such as requiring priority
attention to filling all open laboratory positions.

Other Duties Outside the Laboratories

       The Treasury OIG cited the time examiners were spending performing
duties outside the laboratories as a contributing factor to the laboratories’
inability to provide timely services. These outside duties included training,
crime scene assistance, and expert testimony in court.

      The DOJ OIG found that the number of days staff spent working on
other duties had generally declined from FYs 1998 through 2002, but in
FY 2003, this time spent on other duties almost doubled and stayed high for
FY 2004, as shown in the following table. According to laboratory officials,
national-interest investigations such as the Washington, D.C., sniper case
were the cause for the dramatic increase from the FY 2002 total of 788 days
to the 1,327 days in FY 2003. For FY 2005, the number of days per year
spent on duties outside the laboratories again declined to a level similar to
the earlier years.




                                           43
                       Days Spent on Duty Outside the Laboratories
                               FY 1998 through FY 2005
                             Reported in Prior Report     Data Since Prior Audit Report
                               FY       FY       FY       FY     FY    FY      FY      FY
  Types of Outside Duty
                             1998     1999     2000     2001   2002   2003    2004    2005
            Training          389      397      334      359    403    461     421     354
 Crime Scene Assistance       313     324      258      182    239     552      367       265
    Court Appearances         223     176      213      291    146     314      257       206
            Totals            925     897      805      832    788    1,327   1,045   825
Source: Treasury OIG Audit Report Number OIG-01-068, April 30, 2001, and Office of
Laboratory Services, Bureau of Alcohol, Tobacco, Firearms and Explosives

      To put into perspective the number of days examiners spent working
outside the laboratories, we determined that the outside duty days for
FY 2005 represented about 4 positions for the year. 42 This represented
approximately 5 percent of the staff time for the year of the total positions
allocated to the regional laboratories for that year.

       In response to the Treasury OIG audit, ATF managers said the Office
of Laboratory Services would coordinate all training requests and that
laboratory supervisors would evaluate all ATF requests for laboratory
assistance at crime scenes, other than the ATF’s National Response Teams’
(NRT) activities, to ensure there was a valid need to send personnel into the
field. Based on the DOJ OIG’s interviews with the Director of Laboratory
Services and the laboratory chiefs, we found that laboratories were
managing the demands for these services reasonably well. The
management of each of these outside duties is discussed below.

Training

      The ATF’s Office of Training and Professional Development (TPD)
sponsors programs each year for ATF personnel and state and local
government officials and requests instructor support for some of these
programs from the Office of Laboratory Services. Additionally,
Special Agents-in-Charge (SAC) of field divisions occasionally request
instructor support for ATF-sponsored training events. During the DOJ OIG
audit, the Director’s Office coordinated all training requests. For example, in

       42
           We calculated the equivalent number of positions (4) for FY 2005 by dividing the
number of days spent performing outside duties (825) by the average number of work days
in a year (217). We arrived at that figure by subtracting 20 annual leave days, 13 sick
days, and 10 holidays from 260 weekdays in a year.


                                             44
one instance we reviewed, the Director’s Office advised a field office that due
to current workloads, the Office of Laboratory Services was unable to
provide instructor support outside of TPD-sponsored training events.

Crime Scene Assistance

      In addition to the crime scene assistance provided as part of one of
the ATF’s National Response Teams, SACs also make requests for crime
scene assistance. In these instances, laboratory chiefs may approve or
disapprove the SAC’s requests. The laboratory chiefs consider whether they
have enough qualified staff to meet the request with the objective of
minimizing the time examiners spend away from the laboratories. According
to the laboratory chiefs we interviewed, laboratory personnel provide crime
scene assistance when the laboratory chief agrees that assistance is needed
or when required by higher authority.

Court Appearances

      Examiner appearances in court are based on the receipt of a
subpoena. Section chiefs within the laboratories and examiners coordinate
with the appropriate prosecutor regarding the necessity, timing, and length
of the appearance.

Priority System

      Because laboratories were not adequately staffed to meet all demands
immediately, evidence submissions were prioritized to maximize the
laboratories’ effectiveness. The Treasury OIG found that the ATF did not
develop formal criteria for determining which evidence submissions should
receive expedited service, but instead used informal criteria. The ATF also
did not establish a methodology for classifying non-expedited work, which
accounted for more than two-thirds of all submissions. These examinations
were completed on a first-in, first-out basis, which did not account for the
varying degrees of importance of the non-expedited examinations. The
Treasury OIG recommended that the ATF develop a priority system for
incoming evidence submissions to support the ATF’s investigative priorities.
In response, ATF management stated that a new priority system was under
development.

      However, the DOJ OIG found that the new priority system had not
been implemented at the time of our audit, four years after it was proposed
as a corrective action. According to laboratory officials, the project lapsed
because of the need for extensive internal coordination and because of
administrative delays related to the reorganization of the ATF under the

                                      45
Department of Justice. The new system was to include a revised evidence
transmittal form, an ATF Directive to implement the system, and six priority
classifications including date deadlines, significant incidents, and court
requirements. Because the new system had not yet been implemented, we
re-evaluated the priority issues raised in the Treasury OIG audit.

Effectiveness of the Priority System

       We found that approximately 30 percent of the submissions in the
FACETS data extract we used were submitted as expedited requests.
Submitting agents who needed examination results quickly, or by a specific
date, requested expedited service using the evidence transmittal form.
Agents might specify a date by which the results were needed, but were not
required to do so. A section supervisor reviewed requests for expedited
service to determine whether the circumstances justified moving the request
ahead of other pending examination requests, and might contact the
submitting agent or the agent’s supervisor to discuss the request. If the
section supervisor at the laboratory determined it was appropriate to provide
expedited service, the submission was processed ahead of others. The
DOJ OIG found that expedited examinations were generally completed in a
more timely manner than other examinations, as shown in the following
chart.

               Percentages of Expedited vs. Non-Expedited
                        Examinations Completed
                               (by Days)

  60%
  50%
  40%
                                               % Expedited
  30%
                                               % Non-Expedited
  20%
  10%
   0%
         <31     31-60    61-90     >90
                Days to Complete

Source: DOJ OIG analysis of FACETS data

     As shown in the preceding chart, 54 percent of expedited examinations
were completed within 30 days, compared with 30 percent of non-expedited
examinations. Seventeen percent of expedited examinations took more than
90 days to complete, compared with 39 percent of non-expedited
examinations. However, while priority examinations were generally

                                          46
performed in a more timely manner than non-expedited ones, 46 percent of
examinations for which expedited service was requested were not completed
within 30 days. Thus, almost half of expedited examination requests were
not completed on an accelerated basis, or even within the 30-day long-term
timeliness goal.

      Because multiple examinations may be requested on each submission
of evidence, some of the expedited examination requests that were not
completed within the first 30 days were not the first examination performed
on a submission. We analyzed the information to determine how many of
the expedited requests completed after the first 30 days were the first
examination completed for the submission. Of the 636 (46 percent)
expedited examination requests that were not completed within the first
30 days, 392 (62 percent) were the first examinations completed for the
submission.

       We recommend that the ATF develop and implement a priority
classification system that ranks all incoming evidence submissions in a way
that supports ATF investigative priorities. 43

Authorization and Justification for Expedited Service

      To qualify for expedited service, examination requests have to be
authorized and justified. All requests for examinations are supposed to
include a copy of the ATF’s Report of Investigation to assist laboratory
personnel in performing the examination. To request expedited service,
agents mark the evidence transmittal form and explain why expedited
service is necessary. (See Appendix IV for a copy of the evidence
transmittal form.)

     The criteria to justify expedited service are informal. The laboratories
generally expedite the processing of evidence submissions when:

   •   agents are about to make an arrest,

   •   agents need the examination results to follow-up on a lead or meet a
       court date,

   •   the incident involves death or is high-visibility, or



       43
           The draft priority system that was designed to replace the current system does
not classify every submission, but focuses on high priorities.


                                            47
   •   the supervising agent believes that examination results are needed
       quickly.

      The Treasury OIG judgmentally selected 284 case files to test the
ATF’s priority system. 44 These 284 case files included 614 examination
requests on 390 evidence submission forms. Of the 390 evidence
submissions, 116 included requests for expedited service, while 274 did not.

       The Treasury OIG found that:

   •   44 percent of the 116 requests for expedited service did not contain
       adequate explanations to justify expedited service,

   •   23 percent of the 274 submissions that did not request expedited
       service did not contain Reports of Investigation, and

   •   49 percent of all submissions reviewed were not signed by supervisors.

       Based on these results, the Treasury OIG concluded that questionable
priorities were being assigned to cases and that Special Agents were not
always properly justifying their requests for expedited service.

      The DOJ OIG analysis is based on a statistical sample of evidence
submissions from all examinations completed between October 1, 2003, and
May 13, 2005, or pending on May 13, 2005. Our sample included 465
evidence submissions from 440 cases, of which 220, 126, and 119
submissions were from the Washington, Atlanta, and San Francisco
laboratories, respectively. Of the submissions we reviewed, 113 (24
percent) included requests for expedited service.

       The DOJ OIG found that most of the expedited submissions in our
statistical sample contained justifications. Only 3 of 113 expedited
submissions (approximately 3 percent) did not include justifications. Of the
113 expedited submissions we reviewed, 36 submissions (approximately
32 percent) were not signed by a supervisor and 22 submissions
(approximately 19 percent) did not meet the ATF’s informal criteria
discussed above. The table below presents our results by laboratory.




       44
          The sample included 169 case files which were closed during FY’s 1998 and 1999
and 115 case files which were open at the time the Treasury OIG conducted its field work.


                                           48
                    Submissions Identified as Expedited
                                   Submissions
                                                                      Submissions
                                    Not Signed      Submissions
                       Expedited                                      That Did Not
                                         by            Missing
     Laboratory      Submissions                                       Meet ATF’s
                                    Submitting         Written
                       Reviewed                                         Informal
                                       Agent's      Justification
                                                                         Criteria
                                    Supervisor
    Washington             51            20                0                 8
    Atlanta                26              9               0                 4
    San Francisco          36              7               3                10
        Totals            113            36                3               22
   Source: DOJ OIG on-site review of laboratory records at the three regional forensic
   science laboratories

       We compiled information from the submissions we reviewed to
determine how many expedited requests were associated with each of the
informal criteria listed above. Using the informal criteria, we categorized the
justifications included in these requests as follows.

   •   Trial/Grand Jury – when the examination results were needed for a
       trial or grand jury proceeding.

   •   Arrest/Follow Lead – when examination results were required in order
       to make an arrest or follow-up on an investigative lead.

   •   Supervisor’s Experience – when in the opinion of the supervising agent
       the examination results were needed quickly.

   •   High-Visibility – when the incident being investigated had local,
       regional, or national interest.

   •   Death – when the incident being investigated included a death.

   •   Other – when the request did not include justification or the
       justification did not fall within any of the preceding categories.

     The following table shows the number of requests and percentages by
category, for the 113 requests for expedited service that we reviewed.




                                           49
                          Justification Included in
                       Requests for Expedited Service
                       Type Justification        Number Percentage
                   Trial/Grand Jury                 34        30%
                   Arrest/Follow Lead               30        27%
                   Supervisor's Experience          17        15%
                   High-Visibility                   8         7%
                   Death                             1         1%
                   Other                           23         20%
                              Totals              113       100%
                  Source: DOJ OIG on-site review of laboratory records at the three
                  regional forensic laboratories

      For each submission in our sample, we also determined whether a
Report of Investigation was included in the case file. We found that in
42 percent of the case files we reviewed, the submitting agent did not
furnish the laboratory a copy of the Report of Investigation. Laboratory
personnel often needed the report to assist in the examination of the
evidence. When the report was not available, examiners had to contact the
agent for a copy, further delaying the process.

      Presence of a Report of Investigation (ROI) In Case Files
                         Number of Case Number of Case Files
        Laboratory        Files Reviewed      Without an ROI           Percent
      Washington                207                   76                37%
      Atlanta                   122                   60                49%
      San Francisco             111                   47                42%
           Totals               440                 183                 42%
     Source: DOJ OIG on-site review of laboratory records at the three regional forensic
     science laboratories

      In its 2001 audit report, the Treasury OIG recommended that the ATF
Director ensure that Special Agents provide adequate justification and obtain
proper supervisory signatures before submitting evidence transmittal forms
to the laboratories.

       In response to this recommendation, the Director of Laboratory
Services and the Assistant Director of Science and Technology met with the
23 field division directors in November 2000 and discussed: (1) agents’
failures to include a Report of Investigation with evidence submissions,
(2) cases being marked for expedited service without evidence of
supervisory review or proper justification, and (3) the mislabeling of
submitted evidence. The Treasury OIG also reported that field division
directors said that laboratory supervisors should contact agents’ supervisors

                                          50
immediately when any of the above issues were encountered and that
laboratory supervisors were planning to follow up on that advice.

      Laboratory managers initiated two other actions in FY 2001 to educate
submitting agents on evidence submissions. First, the Agents Guide to the
ATF Laboratories was distributed to all new agents, was placed on the ATF
Intranet, and was added to the 2001 edition of the ATF Reference Library
CD-ROM. Second, laboratory managers developed an advanced training
program for agents on collecting and submitting evidence to the laboratory.
The training was to be held at three divisions during FY 2001. The Treasury
OIG report noted that ATF management believed improved procedures and
more agent education would shorten case turnaround times and ultimately,
reduce case backlogs.

      During the DOJ OIG audit, the Director of Laboratory Services told us
he would address the SACs in October 2005 and again would discuss the
requirement for Special Agents to correctly complete evidence transmittal
forms and include a copy the Report of Investigation with the evidence
submission.

      In the interim, we conducted 22 telephone interviews with a
judgmental sample of ATF agents. The questions we asked included whether
the agents were familiar with the ATF priority system for laboratory
examinations. About one-third of the agents we interviewed were unfamiliar
with the priority system for laboratory examinations.

Priority System Conclusion

      The DOJ OIG found that the priority system in place during our audit
resulted in shorter processing times for some expedited examination
requests, but did not ensure that expedited examination requests were
performed within the first 30 days and did not effectively identify
examinations for expedited service without intervention by section
supervisors in the laboratories. Section supervisors sorted out competing
requests, not all of which were properly authorized or justified. Sometimes
supervisors in the laboratories had to contact submitting agents to
determine the basis for expedited service when information included with the
evidence was insufficient to make this determination.

      The problem described above occurred because requests for expedited
service were based on informal criteria, the criteria were not always used as
the reasons for requesting expedited service, and the priority system did not
account for the relative importance of examination requests that were
submitted as non-expedited requests. We found that some agents were not

                                     51
familiar with the informal criteria. It is also likely that the long processing
times for many examinations contributed to the number of expedited
requests agents submitted. Agents may have been motivated to request
more examinations on an expedited basis when they did not expect to
receive results from a forensic examination for several months.

      We recommend that the ATF develop and implement a priority system
that would classify all evidence submissions into multiple tiers defined to
support ATF priorities. The timeliness standard for different tiers could vary.
For example, a three-tier system might establish timeliness goals for three
separate classes as: (1) within 30 days, (2) within 90 days, and (3) as time
permits. This lowest priority category might be confined to exhibits from
investigations in which the examinations by themselves were unlikely to
produce any leads, and which lacked any other leads and did not involve the
loss of life.

Case File Management Controls

      The Treasury OIG 2001 report identified two specific problems in the
area of case file management controls: (1) not all examiners recorded the
number of hours spent analyzing evidence or the number of hours spent
preparing reports, and (2) not all closed case files contained evidence
control cards. The DOJ OIG audit found that ATF management had not
implemented the new laboratory information management system that
would produce accurate and meaningful reports.

      The ATF’s case file management controls are identified in the
Laboratory Services Policies and Procedures Guidelines (Guidelines). The
Guidelines require that the laboratory evidence control specialist create a
case file for any physical evidence accepted by the laboratory and that each
case file contain an evidence control card for each evidence submission. 45
The purpose of the evidence control card is to document the chain of custody
for the evidence while it is at the laboratory. The Guidelines further state
that examiners should initial the evidence control card, note the date of
return to the evidence control specialist, and record the number of hours
they spent examining and preparing the report on the card when they return
evidence to the evidence control specialist. The Guidelines also specify that
the evidence control cards will be retained by the laboratories after the

       45
            The original evidence control card is not maintained in the case file while the
evidence is at the laboratory, but is maintained in an evidence room separate from the
evidence and case file, as a basic control for tracking the evidence while it is in the
laboratory. When the case is closed and all evidence has been returned to the originating
office, the evidence control card is then placed in the case file.


                                             52
evidence is returned to the submitting office. In response to the Treasury
OIG’s findings, ATF management noted that adherence to the Laboratory
Services Policies and Procedures Guidelines would be addressed in annual
internal reviews of the three forensic science laboratories.

Hours Spent Analyzing Evidence or Preparing Reports

      To evaluate the forensic science laboratories’ compliance with case file
management controls, the Treasury OIG reviewed the 159 closed case files,
which contained the results of 397 examinations for 264 submissions. The
Treasury OIG found that 57 percent of the examinations did not include a
record of the number of hours that examiners had spent analyzing evidence
or preparing reports. The Treasury OIG concluded that if case file
management controls were not followed, laboratory managers would not be
able to determine how much time employees spent conducting examinations
or the number of hours required to complete cases.

       The DOJ OIG followed up on the weaknesses reported by the Treasury
OIG. We used the statistical sample previously discussed for testing the
effectiveness of the priority system. Our sample included 442 completed
examinations from the 465 evidence submissions included in our review. As
the following table indicates, the DOJ OIG found that the hours spent
analyzing evidence or preparing reports were not recorded for 14 percent of
the examinations reviewed. Therefore, we found significant improvement in
the percentage of records containing information on examiner hours spent
analyzing evidence and preparing reports.




                                     53
       Completed Examinations That Did Not Include Information
               On Hours Spent Analyzing Evidence
                 Or Writing Laboratory Reports
                   Number of Exams           Number of Exams
                                                                               Percent
                      Reviewed 46              Missing Hours
                                DOJ
                  Treasury                 Treasury       DOJ OIG       Treasury      DOJ OIG
  Laboratory                    OIG
                     Data                    Data           Data           Data        Data
                                Data
Washington             81        212           77            44            95%         21%
Atlanta              217         123          149              5           69%          4%
San Francisco          99        107             2           11             2%         10%
     Totals          397        442          228             60            57%         14%
Source: Treasury OIG Audit Report Number OIG-01-068, April 30, 2001, and DOJ OIG on-
site review of laboratory records at the three regional forensic science laboratories


Missing Evidence Control Cards

       The Treasury OIG found that 19 percent of closed case files were
missing evidence control cards. As the following chart indicates, the DOJ
OIG found an evidence control card for every evidence submission reviewed.
We concluded that the ATF took effective action to ensure that laboratory
personnel complied with the two specific case file management controls
identified as problems in the Treasury OIG audit.

             Submissions with No Evidence Control Cards
                                                  Number
                            Number of           Submissions
                           Submissions        Without Evidence
                            Reviewed           Control Cards              Percent

                          Prior     Current     Prior     Current       Prior    Current
        Laboratory       Report     Report     Report      Report      Report     Report
      Washington            57        220        34          0          60%         0%
      Atlanta              137        126        15          0          11%         0%
      San Francisco         70        119          1         0            1%        0%
           Totals          264        465        50          0          19%         0%
     Source: Treasury OIG Audit Report Number OIG-01-068, April 30, 2001, and DOJ OIG
     on-site review of laboratory records at the three regional forensic laboratories




       46
          Of the examinations selected for our review, 119 had either been canceled or
were not completed at the time of our audit and therefore are not addressed in this chart.


                                             54
Lack of New Information Management System

       In response to the Treasury OIG audit report, ATF management also
stated that acquisition of the new laboratory information management
system would permit the development of accurate, meaningful reports to
track examiner hours and eliminate the complex flow of documents that is
often the cause of incomplete files cited in that report. As previously stated
in this report, the new system had not been implemented at the time of the
DOJ OIG audit. However, the new system is now projected to be in place by
March 2006. According to a laboratory official, implementation of the new
system was delayed because of problems modifying an existing commercial
software package to meet the needs of the forensic science laboratories.
The commercial software that had originally been selected when the ATF was
part of the Treasury Department worked well for the regulatory functions
performed on alcohol and tobacco products, but needed modification to meet
the forensic laboratories’ needs. The modifications have required extensive
testing and re-testing, causing the delay in implementation.

Conclusion

      Extended processing times identified in the 2001 Treasury OIG audit
report continued into the period audited by the DOJ OIG, with minor
improvement. Two-thirds of completed forensic examinations continued to
take more than 30 days to complete, and about one-third of examinations
took more than 90 days. ATF laboratories were appreciated widely for the
quality of work produced, and we found that the Office of Laboratory
Services was following its quality assurance program. However, some
comments from Special Agents in field offices continued to reflect
dissatisfaction with the processing times, and some agents used other
laboratories to obtain more timely results.

      It is crucial that forensic results be of high quality to ensure reliable
results. The DOJ OIG found that the ATF had a quality assurance program in
place and that the Office of Laboratory Services followed the program to
ensure the quality of its services. The program included annual quality
reviews of all laboratories and the ATF’s participation in a professional
accreditation process.

       Although the ATF implemented several corrective actions planned as a
result of issues identified in the Treasury OIG audit, other corrective actions
that could have had a significant impact on workload management were not
implemented. For instance, the ATF did not increase the number of
positions in the regional forensic laboratories, did not implement a new
priority system, and did not implement a new information management

                                      55
system. The DOJ OIG audit also found that the ATF did not continue initial
efforts to clear the backlog of requests for examinations that were no longer
needed, and the time it took to fill examiner vacancies had not been
reduced.

       The DOJ OIG audit found that the staffing level in FY 2005 could
manage the incoming workload of evidence, but not in combination with the
existing examination backlog and the length of time it took to fill examiner
vacancies, which remained a problem. The laboratories had no plan
regarding how to clear the existing backlog, reduce the time it takes to fill
vacancies, and manage resource-intensive cases so that routine work will
not create a backlog of requests that cannot be addressed within a
reasonable time. As a result, resource-intensive cases can be expected to
continue to contribute to the existing backlog in the future.

      The Treasury OIG found that the ATF did not develop formal criteria
for determining which evidence submissions should receive expedited
service, but instead, used informal criteria. The ATF also did not establish a
methodology for classifying non-expedited work. Although the ATF designed
a revised priority system, the DOJ OIG found that it had not been
implemented and did not address all submissions.

      Questionnaires such as customer satisfaction cards provide a method
for obtaining customer feedback, but the current questions used by the
laboratories do not request specific responses and need to be revamped.
More specific questions should be included, such as whether the analysis was
received in time to be of assistance on a case, or if it was not, what the
negative impact was on the progress of an investigation or the outcome of a
case.

       Our recommendations focus on managing the incoming workload and
existing examination backlog by developing and implementing a revised
priority system and a plan to eliminate the backlog, and developing
approaches to reducing the time it takes to fill examiner vacancies.
Otherwise, the backlog, inadequate priority system, and vacant examiner
positions will continue to interfere with the laboratories’ ability to handle the
incoming workload of evidence on a timely basis. Serious consequences
may occur if delays in identifying suspects, making arrests, and bringing
offenders to trial allow offenders to commit additional crimes.




                                       56
Recommendations

     We recommend that the ATF:

  1. Develop and implement a plan to eliminate the backlog in each
     regional forensic science laboratory.

  2. Develop and implement a plan to manage unusually high incoming
     workloads that are associated with resource-intensive cases.

  3. Develop agreements and contracts with other laboratories to perform
     forensic work to provide support when the demand for examinations is
     unusually high and to help eliminate the backlog.

  4. Develop and implement a priority system for managing all incoming
     evidence submissions. The system should support the ATF’s
     investigative priorities and establish realistic time standards for
     completion.

  5. Ensure that Special Agents are educated on the new priority system
     and comply with its requirements.

  6. Develop and implement a plan to reduce the time it takes to fill
     examiner vacancies.

  7. Revise the questionnaire being sent to customers (customer
     satisfaction cards or an electronic version of similar questions), by
     requesting more specific feedback about the impact of the forensic
     analysis on the progress of investigations and outcomes of cases.




                                     57
                  STATEMENT ON INTERNAL CONTROLS

      In planning and performing our audit of the ATF’s forensic science
laboratories, we considered management controls for the purpose of
determining our auditing procedures. This evaluation was not made for the
purpose of providing assurance on the ATF’s internal controls for forensic
science laboratory services as a whole.

      As discussed in the Findings and Recommendations section of this
report, we found that the ATF has taken effective action to ensure that
laboratory personnel comply with the two specific case file management
controls identified as problems in the prior audit. We did not identify any
additional weaknesses.

      Because we are not expressing an opinion of the ATF’s forensic
laboratory’s internal controls as a whole, this statement is intended solely for
the information and use of the ATF in managing its forensic science
laboratories. This restriction is not intended to limit the distribution of this
report, which is a matter of public record.




                                      58
   STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS


      The ATF forensic laboratories operate under standards set in the ATF
Laboratory Services Policy and Procedure Guidelines and by the American
Society of Crime Laboratory Directors / Laboratory Accreditation Board’s
(ASCLD/LAB) ASCLD/LAB Accreditation Manual, 2003 Edition.

       To obtain reasonable assurance that the ATF complied with laws and
regulations that, if not complied with, could have a material effect on the
ATF laboratories’ workload management, we tested the forensic laboratories’
accreditation status and compliance with ATF standards related to laboratory
quality assurance procedures, case file management controls, and inspection
and corrective action procedures. Except for instances of noncompliance
identified in the Finding and Recommendations section of this report, we did
not identify any instances of noncompliance.




                                     59
                                                                 APPENDIX I

                  OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

      The objectives of the audit were to determine whether the Bureau of
Alcohol, Tobacco, Firearms and Explosives (ATF) forensic laboratories were:
(1) providing timely service, (2) prioritizing their workload effectively, and
(3) ensuring case file management controls were followed.

Scope and Methodology

      The audit was performed in accordance with the Government Auditing
Standards issued by the Comptroller General of the United States, and
included tests and procedures necessary to accomplish the objectives.

      This audit was performed as a follow-up to a Department of the
Treasury, Office of Inspector General (OIG) Report OIG-01-068, CRIMINAL
ENFORCEMENT: ATF Forensic Science Laboratories Need to Improve
Workload Management, issued on April 30, 2001. Neither the Treasury OIG
nor the DOJ OIG evaluated the operational efficiency with which the
laboratories processed evidence.

      Generally, the audit focused on the regional laboratories that analyze
and maintain custody of evidence submitted by ATF field divisions. We
performed fieldwork at the following locations.

      Office of   Laboratory Services                  Ammendale, MD
      Forensic    Science Laboratory-Washington        Ammendale, MD
      Forensic    Science Laboratory-Atlanta           Atlanta, GA
      Forensic    Science Laboratory-San Francisco     Walnut Creek, CA

      The audit generally covered the period October 1, 2003, through
May 13, 2005, the date of the extract we obtained from the Office of
Laboratory Services’ management information system. In addition, we
analyzed some additional data regarding ATF operations for FY 2005 as a
whole.

     We interviewed officials from the ATF’s Office of Laboratory Services
and managers at each of the three forensic science laboratories we visited.

      To obtain background information related to the ATF’s performance of
forensic services, we:

                                       60
   •   reviewed information on the ATF’s mission, its laboratories, services,
       customers, and strategic plan;

   •   reviewed audit and inspection reports issued previously to identify
       findings and recommendations related to the ATF forensic laboratories,
       and determined the status of issues addressed in the Department of
       the Treasury, OIG Audit Report OIG-01-068;

   •   reviewed the ATF’s Laboratory Services Policies and Procedures
       Guidelines;

   •   assessed the professional accreditation status of the forensic science
       laboratories through interviews and review of documentation and
       inspection reports; and

   •   reviewed the ATF’s guidelines for Special Agents about evidence
       handling and communication with the laboratories.

       To assess the timeliness of laboratory services and overall customer
satisfaction, we:

   •   analyzed data to determine turnaround times from the receipt of
       exhibits by laboratories to the issuance of the laboratory report(s);

   •   analyzed data on factors previously reported as having contributed to
       processing delays (These factors include backlog, resource demands
       for high-visibility investigations, hiring lag, and outside duties for
       laboratory examiners such as crime scene assistance, court
       appearances, and training support.);

   •   reviewed customer satisfaction cards on file at each of the three
       forensic science laboratories;

   •   surveyed a judgmental sample of Special Agents on laboratory
       examinations that took more than 180 days to complete to determine
       the effect these processing delays had on the investigations; and

   •   questioned Special Agents as to their overall satisfaction with the
       services provided by the laboratory.

     To assess the effectiveness of the ATF’s laboratory examination
system of priorities, we:


                                       61
  •   reviewed ATF policy and procedures regarding the assignment of
      priorities to exhibits forwarded to the forensic laboratories for
      examination; and

  •   reviewed case files at each laboratory for a statistical sample taken
      from the ATF’s Forensic Automated Case and Exam Tracking System
      (FACETS) to determine whether the priorities assigned exhibits were
      adequately supported, consistent with ATF policy, and properly
      authorized.

      To assess the effectiveness of management controls over laboratory
case files, we:

  •   reviewed ATF policy and procedures on laboratory case files, and

  •   reviewed case files at each laboratory for a statistical sample taken
      from FACETS to determine whether evidence control cards were
      prepared on each evidence submission and whether laboratory
      personnel had documented the hours spent examining exhibits and
      preparing laboratory reports on the evidence control cards.




                                      62
                                                                APPENDIX II

                 DEPARTMENT OF THE TREASURY OIG’s
                  FINDINGS AND RECOMMENDATIONS,
                  AND ATF MANAGEMENT’S RESPONSE

       The following findings, recommendations, and management responses
to the recommendations are extracted from the following Department of the
Treasury, Office of Inspector General, audit report: CRIMINAL
ENFORCEMENT: ATF Forensic Science Laboratories Need to Improve
Workload Management, Report Number OIG-01-068, April 30, 2001. The
ATF’s response to the Treasury OIG report, which was included as Appendix
3 in the report, was dated March 27, 2001, and discussed management
actions taken by the ATF as of that date.

Finding 1: Laboratories Did Not Always Provide Timely Service

Recommendations:

  1. The ATF Director should ensure the laboratories are adequately staffed
     with qualified personnel.

     Management Comment. ATF management agreed the laboratories
     must be adequately staffed with qualified personnel. In response to
     this recommendation, ATF management:

     •   authorized an increase in the full-time equivalent (FTE) ceiling of
         Laboratory Services from 115 to 134 for FY 2001;

     •   centralized all administrative personnel functions within the Office
         of the Director of Laboratory Services, in an effort to improve the
         laboratory recruiting process;

     •   is making immediate use of available recruitment incentives,
         including bonuses and the Pay Demonstration Project, to attract
         and retain highly qualified personnel;

     •   made a concerted effort to hire experienced personnel whose
         training period will be shorter, making them productive sooner; and

     •   is reviewing the re-implementation of customer satisfaction cards,
         with a focus on how to capture the data being generated, and how
         to use it effectively to improve services.


                                      63
  ATF management indicated its efforts have resulted in an overall
  reduction of backlog cases. Examination backlog was reduced 10
  percent in FY 1999 and an additional 13 percent in FY 2000.

2. The ATF Director should ensure laboratory managers coordinate the
   amount of outside work performed by laboratory personnel to limit
   the negative effect on the laboratory’s workload.

  Management Comment. ATF management indicated the duties of
  forensic chemists and examiners are not limited to examining cases
  and providing expert testimony on their findings. As technical experts,
  they are responsible for continuing their professional development
  through training and interaction with peers outside of ATF. They are
  also developing new methods of analysis: training others, both inside
  and outside the ATF; and providing assistance at significant crime
  scenes.

  To ensure laboratory personnel are only assigned outside work that is
  of strategic importance to their development or ATF’s mission, ATF
  management has:

  •   coordinated all ATF-funded training requests to effectively allocate
      this workload laboratory-wide;

  •   required all field division directors to submit requests for non-ATF
      funded training to the Director of Laboratory Services, which has
      significantly reduced the number of field divisions’ requests and
      ensured only the most important requests are forwarded;

  •   required laboratory supervisors to evaluate all ATF requests for
      laboratory assistance at crime scenes (other than National
      Response Team call-outs) to ensure there is a valid need to send
      personnel into the field;

  •   provided each field division with a list of cases that were one year
      old or older, as of May 1999, which resulted in 94 inactive cases
      being removed from the laboratories’ backlogs [ATF repeated this
      process in November 2000, and removed an additional 85 cases
      from the backlog];

  •   committed to providing each field division with a list of all pending
      cases on a quarterly basis, which would help field division directors
      to better manage their operations and permit additional cases to be
      removed from the backlog; and

                                   64
     •   required employees to work closely with the courts to ensure their
         physical presence is absolutely required when they are asked to
         testify in the prosecution of individual cases.

     ATF management indicated these changes have reduced the number of
     days laboratory employees spend on outside work, as shown in the
     following chart:

                                               FY     FY     FY
                 Types of Outside Duty        1998   1999   2000
              Testifying in Court              223    176    213
              Providing Assistance at Crime
              Scenes                          313    324    258
              Providing Training              389    397    334
                            Totals            925    897    805


Finding 2: Laboratories Need to Prioritize Their Workload

Recommendations:

  1. The Director of ATF needs to ensure the ATF develops a priority
     system for incoming evidence submissions which supports the ATF’s
     investigative priorities.

     Management Comment. ATF management indicated Field Operations
     officials are responsible for determining whether Special Agent service
     requests are in line with the ATF’s investigative priorities. However,
     Laboratory Services has taken steps to assist in this process by
     recommending a new priority system for forensic examinations.
     Laboratory Services developed this system by working jointly with
     agents, laboratory examiners, and a cross-section of the field
     divisions. The new priority system is one part of several proposed
     improvements, including a new Evidence Transmittal Form that could
     be completed electronically, and an Evidence Submission Checklist to
     be used by submitting Special Agents. These innovations were
     nearing completion and will soon be reviewed by Field Operations.

  2. The Director of ATF needs to ensure Special Agents provide adequate
     justification and obtain proper supervisory signatures before
     submitting evidence transmittal forms to the laboratories.

     Management Comment. The Director of Laboratory Services and the
     Assistant Director of Science and Technology met with the 23 field

                                        65
     divisions’ directors in November 2000. At that time they discussed
     the following issues: (1) agents’ failures to include a Report of
     Investigation with evidence submissions, (2) cases being marked as
     expedite without evidence of supervisory review or proper justification,
     and (3) the mislabeling of evidence exhibits submitted. The field
     division directors indicated laboratory supervisors should contact agent
     supervisors immediately when any of the above issues were
     encountered. Laboratory supervisors were planning to follow up on
     this advice.

     Laboratory managers initiated two other actions in this fiscal year
     [2001] in their efforts to educate submitting agents. First, the Agents
     Guide To The ATF Laboratories: (1) is being distributed to all new
     agents training classes, (2) has been placed on the ATF Intranet, and
     (3) will be added to the upcoming edition of the ATF Reference Library
     CD-ROM. Second, laboratory managers have developed an advanced
     training program for agents regarding the collection and submission of
     evidence to the laboratory. It was scheduled to be held on-site at
     three divisions during FY 2001.

     Management believed that by improving procedures and providing
     more education to submitting agents, the laboratories would realize
     additional improvement in case turnaround times and ultimately,
     reduce case backlogs.

     Finally, the pending acquisition of a modern Laboratory Information
     Management System to replace the outdated FACETS will permit the
     automated, regular exchange of case information between agents and
     the laboratory. This will allow continuous updates in status and
     immediate notification of changes in priority.

Finding 3: Laboratories Need to Ensure Case File Management
           Controls are Followed

Recommendation:

  1. The Director of ATF needs to ensure laboratory employees comply with
     all established case file management controls. All closed case files
     should contain evidence control cards and document the number of
     hours laboratory employees spent analyzing evidence and preparing
     laboratory reports.

     Management Comment. ATF management indicated the audit report
     correctly noted the laboratories were not complying with Laboratory

                                    66
Services Policies and Procedures Guidelines [Guidelines] in some
instances. The [Guidelines] were written for the purpose of
establishing standard best practices for laboratory operations. If the
laboratories establish a new practice or improve a current practice, the
[Guidelines] must be updated.

As a result of the [Treasury] audit, the ATF has taken corrective action
to ensure evidence control cards are placed in all case jackets
promptly when laboratory reports are completed and cases are closed.
They have also taken corrective action to ensure examiner hours are
recorded. The ATF addressed adherence to this standard, and all other
[Guidelines] in its annual internal review team audits of the three
forensic science laboratories.

In addition, ATF management indicated the acquisition of [a laboratory
information management system] to replace the outdated FACETS will
permit the development of accurate, meaningful reports that track
examiner hours. The new [laboratory information management
system] will also eliminate the complex flow of documents that is often
the cause of incomplete files cited in the report.




                               67
                                                             APPENDIX III

                      VACANT POSITIONS AT THE
                THREE FORENSIC SCIENCE LABORATORIES
                      AS OF SEPTEMBER 30, 2005

 Laboratory                    Position                  *Salary Range
Washington       Chief, Arson & Explosives Section II   $74,000-$118,000
Washington       Forensic Chemist                       $52,500-$118,000
Washington       Forensic Chemist                       $52,000-$118,000

Washington       Chief, Firearms Section                $74,000-$118,000

Washington       Chief, Identification Section          $74,000-$118,000
Washington       Fingerprint Specialist                 $74,000-$118,000
Washington       Fingerprint Specialist                 $74,000-$118,000
Washington       Fingerprint Specialist                 $74,000-$118,000

Washington       DNA Technical Leader                   $74,000-$118,000
Washington       DNA Specialist                         $52,000-$118,000
Washington       DNA Specialist                         $52,000-$118,000

Atlanta          No Vacancies

San Francisco    Chief, Arson & Explosives Section      $82,500-$128,000
San Francisco    Forensic Chemist                       $57,000-$128,000
San Francisco    Forensic Chemist                       $57,000-$128,000

* Note: These are location-specific salary ranges in the Personnel
Management Pay Demonstration Project for the pay bands in which these
positions were advertised. Chief/leader positions were advertised in pay
band 3; examiner positions were advertised in both pay band 2 and pay
band 3.




                                       68
                                APPENDIX IV

ATF EVIDENCE TRANSMITTAL FORM




             69
                             APPENDIX V

CUSTOMER SATISFACTION CARD




            70
                                    APPENDIX VI

THE ATF’S RESPONSE TO THE DRAFT REPORT




                  71
72
73
74
                                                               APPENDIX VII

        OFFICE OF THE INSPECTOR GENERAL’S ANALYSIS AND
        SUMMARY OF ACTIONS NECESSARY TO CLOSE REPORT


      The OIG provided a draft of this audit report to the ATF for review and
comment. The ATF’s response is included in Appendix VI of this final report.
The ATF generally concurred with each of the seven recommendations. Our
analysis of the ATF’s response to the recommendations is provided below.

Status of Recommendations

  1. Resolved. This recommendation is resolved based on the ATF’s
     agreement to develop and implement a plan to address the backlog of
     forensic cases. The recommendation can be closed when we receive
     documentation supporting the development and implementation of the
     plan.

  2. Resolved. This recommendation is resolved based on the ATF’s
     agreement to develop and implement a formal plan to manage
     workloads from resource-intensive cases. The recommendation can be
     closed when we receive documentation supporting the development
     and implementation of the plan.

  3. Resolved. This recommendation is resolved based on the ATF’s
     concurrence that agreements and contracts with other laboratories
     would be beneficial and the ATF’s stated intent to look for
     opportunities to use contracts or agreements with other laboratories.
     However, we are concerned that the ATF also states, somewhat
     contradictorily, that it does not agree that the recommended corrective
     action should be pursued at this time. The ATF bases this position on
     the belief that our report concludes that most, if not all, public forensic
     laboratories face significant backlogs and a belief that the
     recommendation would require the ATF to overcome significant
     accreditation issues. We disagree. While our report provides some
     discussion of backlogs at public laboratories, the discussion focuses on
     the use of the 30-day time standard at such laboratories and
     compliance with that standard by the ATF. We did not make
     conclusions regarding the general status of backlogs in public
     laboratories, and our report should not be read as a comprehensive
     assessment of backlogs in public laboratories. In addition, our
     recommendation is not focused on the ATF’s use of public laboratories
     and applies equally to the use of accredited private laboratories.

                                      75
  This recommendation can be closed when we receive documentation
  supporting the ATF’s efforts to seek opportunities to use agreements
  or contracts with other laboratories.

4. Resolved. This recommendation is resolved based on the ATF’s
   agreement to implement a priority system for managing all incoming
   evidence submissions. The recommendation can be closed when we
   receive documentation supporting implementation of the system.

5. Resolved. This recommendation is resolved based on the ATF’s
   agreement to ensure that special agents are educated on the new
   priority system. However, the ATF did not address how it will ensure
   that special agents comply with requirements of the new system. The
   recommendation can be closed when we receive documentation
   supporting completion of the training and the method to be used to
   ensure compliance with the system.

6. Resolved. This recommendation is resolved based on the ATF’s
   agreement to develop and implement a plan to reduce the time it
   takes to fill examiner vacancies. The recommendation can be closed
   when we receive documentation supporting development and
   implementation of the plan.

7. Resolved. This recommendation is resolved based on the ATF’s
   agreement to revise the questionnaire being sent to customers. We
   understand the ATF’s objection to always obtaining feedback on case
   outcomes, but we continue to believe that the ATF should solicit
   information on case outcomes that were significantly affected,
   positively or negatively, by the forensic analyses performed. The
   recommendation can be closed when we receive documentation
   supporting implementation of the revised questionnaire.




                                 76
